<html>
<title> - RECOVERY ACT: PROGRESS REPORT FOR TRANSPORTATION INFRASTRUCTURE INVESTMENT</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                             RECOVERY ACT:
                          PROGRESS REPORT FOR
                     TRANSPORTATION INFRASTRUCTURE
                               INVESTMENT

=======================================================================

                                (111-83)

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           December 10, 2009

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure




                  U.S. GOVERNMENT PRINTING OFFICE
54-019                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
LEONARD L. BOSWELL, Iowa             TODD RUSSELL PLATTS, Pennsylvania
TIM HOLDEN, Pennsylvania             SAM GRAVES, Missouri
BRIAN BAIRD, Washington              BILL SHUSTER, Pennsylvania
RICK LARSEN, Washington              JOHN BOOZMAN, Arkansas
MICHAEL E. CAPUANO, Massachusetts    SHELLEY MOORE CAPITO, West 
TIMOTHY H. BISHOP, New York          Virginia
MICHAEL H. MICHAUD, Maine            JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          JEAN SCHMIDT, Ohio
TIMOTHY J. WALZ, Minnesota           CANDICE S. MILLER, Michigan
HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          VERN BUCHANAN, Florida
HARRY E. MITCHELL, Arizona           ROBERT E. LATTA, Ohio
CHRISTOPHER P. CARNEY, Pennsylvania  BRETT GUTHRIE, Kentucky
JOHN J. HALL, New York               ANH ``JOSEPH'' CAO, Louisiana
STEVE KAGEN, Wisconsin               AARON SCHOCK, Illinois
STEVE COHEN, Tennessee               PETE OLSON, Texas
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
PARKER GRIFFITH, Alabama
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico
JOHN GARAMENDI, California

                                  (ii)



                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................     v

                               TESTIMONY

Andolino, Rosemarie S., Commissioner of Aviation, Chicago 
  Department of Aviation, representing the American Association 
  of Airport Executives..........................................    45
Calabrese, Joseph, General Manager, Greater Cleveland Regional 
  Transit Authority, representing the American Public 
  Transportation Association.....................................    45
Porcari, Hon. John D., Deputy Secretary, U.S. Department of 
  Transportation.................................................     6
Ridley, Gary, Secretary, Oklahoma Department of Transportation, 
  representing the American Association of State Highway and 
  Transportation Officials.......................................    45
Siggerud, Katherine A., Managing Director, Physical 
  Infrastructure Issues, Government Accountability Office........    45
Van Buren, James W., Vice President, Development, and Chief 
  Operating Officer, New Enterprise Stone and Lime Co., Inc., 
  representing the American Road and Transportation Builders 
  Association....................................................    45

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Brown, Jr., Hon. Henry E., of South Carolina.....................    76
Carnahan, Hon. Russ, of Missouri.................................    78
Johnson, Hon. Eddie Bernice, of Texas............................    79
Markey, Hon. Betsy, of Colorado..................................    83
Oberstar, Hon. James L., of Minnesota............................    87

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Andolino, Rosemarie S............................................    93
Calabrese, Joseph................................................   103
Porcari, Hon. John D.............................................   111
Ridley, Gary.....................................................   115
Siggerud, Katherine A............................................   127
Van Buren, James W...............................................   157

                       SUBMISSIONS FOR THE RECORD

``Committee on Transportation and Infrastructure the American 
  Recovery and Reinvestment Act of 2009 (P.L. 111-5) (Recovery 
  Act) Bridges Improved by Recovery Act Highway and Bridge 
  Funds,'' Committee on Transportation and Infrastructure 
  Majority Staff, chart..........................................   lxi
``Committee on Transportation and Infrastructure the American 
  Recovery and Reinvestment Act of 2009 (P.L. 111-5) (Recovery 
  Act) Miles Improved by Recovery Act Highway and Bridge Funds,'' 
  Committee on Transportation and Infrastructure Majority Staff, 
  chart..........................................................  lxii
Larsen, Hon. Rick, a Representative in Congress from the State of 
  Washington, ``Stimulus Newsletter''............................    26
Porcari, Hon. John D., Deputy Secretary, U.S. Department of 
  Transportation:................................................
      Response to request for information from Rep. Cao, a 
        Representative in Congresss from State of Louisiana......    14
      Response to request for information from Rep. Oberstar, a 
        Representative in Congress from the State of Minnesota...    41
``T&I Committee Transparency and Accountability Information by 
  State and Formula Funding under the American Recovery and 
  Reinvestment Act of 2009 (P.L. 111-5) (Recovery Act) 
  Submissions Received by T&I Committee (Data Reported as of 
  October 31, 2009,'' Committee on Transportation and 
  Infrastructure Majority Staff, chart........................... lxiii
``T&I Committee Transparency and Accountability Information by 
  State under the American Recovery and Reinvestment Act of 2009 
  (P.L. 111-5) (Recovery Act) Submissions Received by T&I 
  Committee (Data Reported as of October 31, 2009) Percentage of 
  Allocated Funds Associated with Project Stages Clean Water 
  State Revolving Fund,'' Committee on Transportation and 
  Infrastructure Majority Staff, chart...........................  lxxi
``T&I Committee Transparency and Accountability Information by 
  State under the American Recovery and Reinvestment Act of 2009 
  (P.L. 111-5) (Recovery Act) Submissions Received by T&I 
  Committee (Data Reported as of October 31, 2009) Percentage of 
  Allocated Funds Associated with Project Stages Highways and 
  Bridges,'' Committee on Transportation and Infrastructure 
  Majority Staff, chart..........................................   lxx
``The American Recovery and Reinvestment Act of 2009 
  Transportation and Infrastructure Provisions Implementation 
  Status as of November 20, 2009,'' Committee on Transportation 
  and Infrastructure Majority Staff, report......................   xiv

[GRAPHIC] [TIFF OMITTED] T4019.001

[GRAPHIC] [TIFF OMITTED] T4019.002

[GRAPHIC] [TIFF OMITTED] T4019.003

[GRAPHIC] [TIFF OMITTED] T4019.004

[GRAPHIC] [TIFF OMITTED] T4019.005

[GRAPHIC] [TIFF OMITTED] T4019.006

[GRAPHIC] [TIFF OMITTED] T4019.007

[GRAPHIC] [TIFF OMITTED] T4019.008

[GRAPHIC] [TIFF OMITTED] T4019.009

[GRAPHIC] [TIFF OMITTED] T4019.010

[GRAPHIC] [TIFF OMITTED] T4019.011

[GRAPHIC] [TIFF OMITTED] T4019.012

[GRAPHIC] [TIFF OMITTED] T4019.013

[GRAPHIC] [TIFF OMITTED] T4019.014

[GRAPHIC] [TIFF OMITTED] T4019.015

[GRAPHIC] [TIFF OMITTED] T4019.016

[GRAPHIC] [TIFF OMITTED] T4019.017

[GRAPHIC] [TIFF OMITTED] T4019.018

[GRAPHIC] [TIFF OMITTED] T4019.019

[GRAPHIC] [TIFF OMITTED] T4019.020

[GRAPHIC] [TIFF OMITTED] T4019.021

[GRAPHIC] [TIFF OMITTED] T4019.022

[GRAPHIC] [TIFF OMITTED] T4019.023

[GRAPHIC] [TIFF OMITTED] T4019.024

[GRAPHIC] [TIFF OMITTED] T4019.025

[GRAPHIC] [TIFF OMITTED] T4019.026

[GRAPHIC] [TIFF OMITTED] T4019.027

[GRAPHIC] [TIFF OMITTED] T4019.028

[GRAPHIC] [TIFF OMITTED] T4019.029

[GRAPHIC] [TIFF OMITTED] T4019.030

[GRAPHIC] [TIFF OMITTED] T4019.031

[GRAPHIC] [TIFF OMITTED] T4019.032

[GRAPHIC] [TIFF OMITTED] T4019.033

[GRAPHIC] [TIFF OMITTED] T4019.034

[GRAPHIC] [TIFF OMITTED] T4019.035

[GRAPHIC] [TIFF OMITTED] T4019.036

[GRAPHIC] [TIFF OMITTED] T4019.037

[GRAPHIC] [TIFF OMITTED] T4019.038

[GRAPHIC] [TIFF OMITTED] T4019.039

[GRAPHIC] [TIFF OMITTED] T4019.040

[GRAPHIC] [TIFF OMITTED] T4019.041

[GRAPHIC] [TIFF OMITTED] T4019.042

[GRAPHIC] [TIFF OMITTED] T4019.043

[GRAPHIC] [TIFF OMITTED] T4019.044

[GRAPHIC] [TIFF OMITTED] T4019.045

[GRAPHIC] [TIFF OMITTED] T4019.046

[GRAPHIC] [TIFF OMITTED] T4019.047

[GRAPHIC] [TIFF OMITTED] T4019.048

[GRAPHIC] [TIFF OMITTED] T4019.049

[GRAPHIC] [TIFF OMITTED] T4019.050

[GRAPHIC] [TIFF OMITTED] T4019.051

[GRAPHIC] [TIFF OMITTED] T4019.052

[GRAPHIC] [TIFF OMITTED] T4019.053

[GRAPHIC] [TIFF OMITTED] T4019.054

[GRAPHIC] [TIFF OMITTED] T4019.055

[GRAPHIC] [TIFF OMITTED] T4019.056

[GRAPHIC] [TIFF OMITTED] T4019.057

[GRAPHIC] [TIFF OMITTED] T4019.058

[GRAPHIC] [TIFF OMITTED] T4019.059

[GRAPHIC] [TIFF OMITTED] T4019.060

[GRAPHIC] [TIFF OMITTED] T4019.061

[GRAPHIC] [TIFF OMITTED] T4019.062

[GRAPHIC] [TIFF OMITTED] T4019.063

[GRAPHIC] [TIFF OMITTED] T4019.064

[GRAPHIC] [TIFF OMITTED] T4019.065

[GRAPHIC] [TIFF OMITTED] T4019.066

[GRAPHIC] [TIFF OMITTED] T4019.067



      HEARING ON RECOVERY ACT: PROGRESS REPORT FOR TRANSPORTATION 
                       INFRASTRUCTURE INVESTMENT

                              ----------                              


                      Thursday, December 10, 2009

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                                            Washington, DC.
    The Committee met, pursuant to call, at 10:11 a.m., in Room 
2167, Rayburn House Office Building, Hon. James Oberstar 
[Chairman of the Committee] presiding.
    Mr. Oberstar. Good morning. Welcome to the Committee on 
Transportation and Infrastructure. I apologize for the little 
delay. We were having a consultation of sorts with Mr. Duncan, 
a conversation about various and sundry things relating to the 
well-being of the U.S. House of Representatives.
    This is the fifth in the series of oversight and 
accountability hearings that we are conducting, as promised, in 
Full Committee, and at least three, four other hearings held by 
various Subcommittees on the progress and work of the Recovery 
Act portions that are under the jurisdiction of this committee.
    As we will see in the course of this morning's 
presentation, there are 7,900 highway transit projectsunderway, 
have broken ground, have people working; hundreds of thousands 
off the unemployment rolls onto the payrolls and paying their 
taxes and paying their mortgage and getting their health 
insurance reinstated and sending their kids to school.
    As I said in a burst of enthusiasm at a groundbreaking 
project in New Mexico, these are the good jobs with the good 
wages in society that enable the workers to pay the mortgage, 
send the kids through school, put food on the table, and buy 
the snowmobiles. Then there is a silence in the crowd. I said, 
Oh, I guess you are not into snowmobiles out here in Las 
Cruces, New Mexico. Sorry, I got carried away. How about ATVs? 
We use those, too, in Minnesota.
    Today, there is a new feature of our report, a compilation 
that I have been anxiously awaiting, roads and miles of roads 
and numbers of bridges. Nationally, new construction, pavement 
improvements, pavement widening, traffic safety management, and 
the transportation enhancements have added up to 27,756.6 miles 
of road improvement. That is more than all the States do in any 
given year, in 11 months. And 1,272 bridge improvements, bridge 
replacements, new bridge construction. In addition, of the 
11,746 highway and bridge contractors in the U.S., 87 percent 
are small businesses. They have less than fifty employees. 
Ninety-three percent have less than a hundred. So 11,000 
contractors that have a hundred or less than a hundred 
employees, and they are underway with this stimulus program as 
well.
    Beyond those funds that we will hear about today, beyond 
the Recovery Act, AASHTO, the American Association of State 
Highway and Transportation Officials, and the American Public 
Transit Association, have identified $62 billion of projects 
that are ready to go to construction within the next 4 or 5 
months; projects they can have under contract and underway 
because of the streamlining, because of moving these projects 
faster than ever before, because they know how the process 
works now and they are ready to go with phase 2 stimulus.
    I scheduled this, as the other hearings, to receive input 
from Federal, State, and local transportation personnel who are 
on the front lines in implementing the programs that we have 
authorized under the Recovery Act. Today, we are also going to 
hear from a supply chain sector leader whose company has been 
able to keep workers employed because of these recovery 
dollars. You don't just build a highway. You need the sand and 
gravel, you need the asphalt, you need the cement that is 
folded in to make ready mix, and you need rebar and I-beams and 
you need fencing and fence posts. You need all of that. All 
those create jobs as well.
    I don't know about the rest of stimulus. I speak not for 
the tax cut that went out, I speak not for thebroadband and the 
Internet and all the rest of those things. I know what we are 
accounting for, and there are real jobs, real people at work, 
payrolls being met, people taken off unemployment compensation, 
people getting their health insurance reinstated. In the case 
of those operating engineers who typically have a contract that 
requires 1,200 hours of work, they are getting their 1,200 
hours, they are getting their health insurance reinstated, they 
are paying their mortgages, they are staying in their homes, 
they are sending their kid to summer camp and to school.
    10,329 highway and transit projects are out to bid, 
totaling $24.5, 71 percent of the available formula funds. 
8,871 highway and transit projects, $20.2 billion, 59 percent 
are under contract, and work has begun on 7,086 projects. These 
graphs show the results.
    When you add up what we are reporting on today, as of 
November 1, we have payroll expenditures of $1.1 billion, $179 
million in unemployment compensation checks avoided, and $230 
million paid in direct Federal taxes. When you add up also the 
supply chain and the steel, sand, and gravel, as I said a 
moment ago, and asphalt and manufactured equipment, new buses 
and those who are building D4 cats and front-end loaders and 
the rest of the heavy highway construction equipment, that is 
630,000 jobs; nearly 1,300 bridge improvements; 28,000 miles, 
nearly, of highway improvements. When you add in the Clean 
Water Act, the GSA with its Federal building responsibilities, 
when you add in work the Corps of Engineers is doing, the 
shipyards under MARAD, the Coast Guard bridge replacements that 
have been completed, that is 14,564 projects under our 
Committee jurisdiction, totaling $44.7 billion, 70 percent of 
the funds, as of November 20. In addition, State and other 
agencies have obligated $37.8 billion.
    So we are seeing work underway, people at work, jobs 
created, and remember that in December, 2007, there were 
780,000 construction workers nationwide out of a job, sitting 
on a bench. Mr. Shuster and I moved the TEA-21 bill. We created 
a special account of $10 million for training of apprentices in 
the construction trades, knowing that there is going to be a 
surge of jobs. In the first 5 years of TEA-21, 3 million net 
new construction jobs were created nationwide because of that 
program. We need to follow on a 6-year program to do exactly 
the same thing, only more. We can create 6 million jobs with a 
$450 billion program compared to the $218 billion we had in 
TEA-21, which was a 40 percent increase over previous funding.
    Again, transportation investment creates jobs and permanent 
improvements and benefit the lives of our fellow citizens and 
improves commerce and moves goods more efficiently through our 
cities and rural areas into urban centers. We will hear more in 
detail from our upcoming witnesses.
    Mr. Duncan.
    Mr. Duncan. Thank you very much, Mr. Chairman, and thank 
you for your great leadership on this committee. I think the 
model of the way we should do infrastructure projects in this 
country was the Minneapolis bridge replacement project in 
Minnesota, under your leadership, which was done under 
expedited procedures. All of us who serve on this Committee 
believe very strongly in the work of this committee. In fact, 
in my first 6 years in the Congress I had two different offers 
to move to two different very important committees, but I chose 
to stay on this committee. And I have always been happy with 
that decision because I believe in what this Committee does, 
and I know that all of us on both sides believe a lot more work 
needs to be done on our roads and bridges, on our aviation 
system, on ourwastewater and clean water systems, at our ports 
and on our railroads and so forth, all the things that we 
handle in this committee.
    Of course, we do have an obligation to make sure that the 
money that flows through this committee, which is a very large 
amount, is spent in the most economic and efficient way 
possible. I think all of us were disappointed in the original 
stimulus bill, that of that $787 billion, which was sold to the 
country as being an infrastructure bill, that only about 8 
percent went for actual infrastructure and according to the 
figures I have been given by the staff, the Department of 
Transportation got $48 billion of that.
    Mr. Mica, for whom I am sitting in today, he is at the 
funeral of former Senator Paula Hawkins, for whom he was Chief 
of Staff for a few years. He has asked me to say or point out 
that only 13 percent of that money has been paid out thus far. 
But I do think that there are many good things that have been 
done with the portion that is going for infrastructure, and I 
think that almost everybody or hopefully everybody on this 
Committee wants to see a major highway bill sooner rather than 
later and we want to see this money spent properly.
    Just yesterday, Senators McCain and Coburn came out with a 
list of hundreds of stimulus projects. I don't think many of 
them were transportation projects, but money that was being 
spent, many billions, in just ridiculous ways. I don't think 
anybody in the country or very many people support most of the 
things or a lot of the things that were shown in their report.
    We do want to work on these things. And when I said at the 
beginning of my remarks commending the Chairman and others on 
the Minneapolis bridge project, the thing that has disturbed me 
the most in my years on this Committee is the delay and the 
cost overruns that occur because of all the rules and 
regulations and red tape, so much so that we had a hearing one 
time a few years ago and they said the main runway at the 
Atlanta airport, the newest runway, took 14 years from 
conception to completion. It only took 99 construction days. 
And they were so happy and relieved to finally get all the 
approvals that they did that in 33 24-hour days.
    We had a hearing a couple of years ago on the Highways and 
Transit Subcommittee, I forget whether it was a 9-mile or 12-
mile project in southern California, road project, took 17 
years from conception to completion. And almost all of these 
years added on to these projects are due to the environmental 
rules and regulations and red tape.
    We have tried to, but I think we need to do much more in 
getting environmental streamlining into these projects because 
when the average road project takes 10 to 12 years and these 
things are taking about three or four times as long as any 
other developed nation, it runs up the costs tremendously and 
also it makes it harder for us to compete in the global market 
that we have before us today.
    With that, I will yield back. I won't be able to stay as 
long because I didn't know that I was going to have to sit in. 
I have got some other appointments. But I will stay as long as 
I can.
    Thank very much, Mr. Chairman.
    Mr. Oberstar. We will enjoy your presence as long as you 
can remain with us. Thank you very much for your leadership, 
your chairmanship of the Aviation Subcommittee several years 
ago, and for your vigilance. It was during your tenure where we 
moved legislative language to expedite aviation projects. You 
and I worked together on that question. And airport runway 
projects have been speeded up since then. In the current 
SAFETEA legislation we had a further expediting, permit 
expediting provision that States have used and now have some 
experience. And we have a much expanded Office of Project 
Expediting in the Federal Highway Administration in our bill 
reported from Subcommittee. If we can ever get the 
administration to come on board and the Senate to move along, 
we could have had that bill passed already this year, in the 
House at any rate. I thank the gentleman for his participation.
    Mr. Duncan. Well, you also helped me, Mr. Chairman, on much 
of the work on the Public Buildings and Grounds on some of 
those major projects and also when I chaired the Water 
Resources Subcommittee. So I do greatly admire and respect you 
and I appreciate your leadership. We just need to keep trying 
to do more and do better.
    Mr. Oberstar. Exactly. I completely agree with you about 
the delays. We have a 30-year bridge in Minnesota that hasn't 
been built. Let me amend that. It was 27. When we started with 
it, it was $30 million. Now it would be $300 million if we ever 
get it built. That is why we need project expediting.
    By the way, on public buildings and courthouses, in the San 
Diego courthouse, because of what you started and we started 
together, we saved taxpayers $160 million. And we have a new 
courthouse and judges are going to do courtroom sharing. That 
is the kind of thing we ought to be doing. So we proved that--
States have proved to us and AASHTO and State DOTs have 
demonstrated given the money, given the right circumstances, 
they can get these projects out the door, on the roadway, 
people working, without the delays that we have experienced in 
the past, and we are going to apply these lessons to the future 
of transportation.
    I announced earlier or at the previous hearing that to 
expedite things and because we are likely to have votes on the 
rule in an hour, I will ask Subcommittee Chairs for 2-minute 
statements, if they wish to do so.
    Ms. Norton. You have been very vigorous in holding hearings 
in your jurisdictional area, as has Ms. Johnson.
    Ms. Norton. Yes, Mr. Chairman. With only brief remarks, we 
have had four tracking hearings. We are going to have a fifth 
hearing, a joint hearing with Ways and Means on a new, complex 
Social Security center that we are building with stimulus 
funding.
    I am very proud of what this Committee has done. What we 
are showing in jobs for this country basically comes out of 
this committee. I am pleased that my own jurisdiction, which 
ranked very low because it doesn't have the fully staffed 
Department of Transportation, but contracts out, so it ranked 
very low, and it has shot up to 40th.
    But I am proud of them as well, Mr. Chairman, because you 
went with me to Murch Elementary School just last month when 
the city got a national award for safe schools routes. The 
Chairman was there. The children and the teachers could not 
have been more thrilled to have the full Chairman of the 
Committee come. That project is emblematic of the kinds of 
things the District has been doing. Instead of simply laying 
some concrete with the most shovel-ready projects, what they 
have done are things like safe routes and bike trails that are 
slightly more complicated because you have to take into account 
more factors. I am pleased that they don't have the staff DOT 
that States do; they contract out most stuff. They have speeded 
up.
    I am particularly pleased that what I understand from the 
Department of Transportation is that the training fund you 
spoke about had indeed been allocated. This is the next 
generation of construction workers. Construction workers are 
like everybody else, they age out, they retire, and many of 
them have done so, creating shortages in the skilled crafts.
    So I very much appreciate what your Committee has done and 
what our own Committee has done on training funds with the 
money allocated to us for that purpose.
    Thank you, Mr. Chairman, for this very important hearing.
    Mr. Oberstar. Thank you very much. On EDA, the Economic 
Development Administration has awarded 68 grants, $147 million, 
100 percent of their funds, projects which most of them are 
completed already.
    Ms. Johnson, Chair of the Water Resources Subcommittee.
    Ms. Johnson of Texas. Thank you very much, Mr. Chairman. We 
had circumstances that changed in certain projects that we had 
going just after we planned the Recovery Act, and we are still 
trying to get some attention given to the new standard for the 
levees in Dallas. The biggest problem we have had is the way 
the funds have been distributed. Our major cities are 
complaining, but many of the rural areas have been waiting for 
a number of years, and they were ready to go.
    We have a long ways to go to satisfy many of 
thestakeholders, but we think we have gotten it pretty much 
back on track.
    Thank you. However, I must say, with the water portion of 
the bill and the revolving fund, it has not done anything yet. 
So we need to push that a little bit.
    Mr. Oberstar. EPA, unfortunately, had a very slow start, 
but they now have 1,269 State Revolving Loan Fund projects out, 
totaling $2.6 billion. That is two-thirds of the funds. And 723 
projects are under contract. They had problems early on 
administering the Buy America language, but I think they have 
got that straightened out now and there are three different 
categories of exceptions for Buy America, and they have all 
been worked out to the satisfaction of State agencies.
    We are going to begin with Mr. Porcari. Thank you very 
much, Mr. Secretary, for being with us, for your previous 
service on the front line, transportation in the State of 
Maryland. It is my pleasure to work with you over many years. 
You bring a great level of expertise and history and 
understanding to the task at USDOT. So we welcome your 
comments.

 TESTIMONY OF THE HON. JOHN D. PORCARI, DEPUTY SECRETARY, U.S. 
                  DEPARTMENT OF TRANSPORTATION

    Mr. Porcari. Thank you, Mr. Chairman and Congressman Duncan 
and Members of the Committee. It is my pleasure to be here 
today. I appreciate the opportunity to appear before you today 
to discuss the Department of Transportation's progress in 
implementing the American Recovery and Reinvestment Act of 
2009.
    We are now in the 43rd week of one of the most sweeping 
economic reform packages in U.S. history. DOT continues to make 
swift and substantial progress in getting projects out the door 
to revitalize transportation infrastructure and create good 
jobs for so many Americans hard hit by the recession. Today, I 
will provide an update on our progress and plans going forward.
    As of last week, of the $48.1 billion allocated to us, DOT 
had obligated $31.8 billion on nearly 11,000 projects 
nationwide. More than 7,100 of these projects are already under 
way, or completed, and more of them are coming online every 
day. DOT outlays are also steadily increasing. In week 32 of 
the Recovery Act implementation, we reported 3.4 billion in 
outlays. Ten weeks later, the outlays continued to climb an 
average of $342 million each week, reaching $6.8 billion in our 
most recent reports. This is clearly good news, and we expect 
this trend to continue as larger projects come online.
    Each of our operating administrations has achieved 
significant results worth noting. For example, the Federal 
Aviation Administration's funding has supported 355 airport 
projects, representing $1.1 billion of projects. I would also 
like to particularly highlight the positive results we are 
seeing from the Recovery Act's exemption to the Alternative 
Minimum Tax. Fifty-seven transactions, representing about $7.3 
billion in airport bonds, have been sold at 33 different 
airports because of the AMT. This provision is helping us 
leverage our funding to get more Recovery Act resources.
    The Federal Highway Administration has authorized more than 
$21 billion in funding for nearly 9,500 projects, representing 
79 percent of the total funds provided to the States.
    On the transit side, to date the Federal Transit 
Administration has awarded nearly 700 grants, totaling $7.2 
billion. An additional $500 million of projects is in the 
pipeline.
    All the work created by the Recovery Act is making real and 
tangible difference in the lives of many Americans. I would 
like to share just one example. Keith Kist of Cleveland, Ohio, 
is an experienced highway construction worker who was laid off 
during the recession. Today, Keith is back at work full time on 
a series of Recovery funded airport improvement projects in 
Cleveland that will keep him employed for quite a while. He is 
confident that more good Recovery jobs are out there for others 
in his local construction union as well.
    Looking ahead, DOT is pressing forward on the new 
initiatives included in the Recovery Act. We are preparing to 
award $8 billion to jump-start high-speed passenger rail 
service in America. In response to this groundbreaking 
opportunity, Secretary LaHood announced last week more than 30 
domestic and foreign manufacturing firms have committed to 
establish or expand the manufacturing of parts, supplies, and 
equipment right here in the United States if they are selected 
by the States receiving these funds.
    We are clearly looking at the total jobs picture. This is a 
very significant achievement that will help to expand domestic 
assembly work and jump-start manufacturing in this country. We 
think it is a positive sign of things to come and a clear 
indication that the Recovery Act is working for America by 
creating jobs and investing in the new updated infrastructure 
that will help keep us competitive.
    Our $1.5 billion discretionary Tiger Grant program is also 
moving forward. We have over 1,400 applications and we are 
currently conducting an intensive review process on each and 
every one of those. We are expected to announce the grant 
recipients in January, 2010, ahead of the February deadline.
    DOT also participated in the first ever section 1512 job 
reporting effort that is required under the Recovery Act. 
Overall, our DOT recipients did an excellent job in responding 
to the stated request, with more than 96 percent of the 
recipients responding.
    In addition to all the direct jobs created, the Recovery 
Act also has a ripple effect that is creating and preserving 
additional jobs in communities across the country. There is no 
question the Recovery Act is helping to revive our economy and 
support hardworking families. We will continue to obligate the 
remaining funds as quickly and responsibly as possible and 
ensure these critical resources are put to work improving our 
infrastructure and creating good jobs for many Americans. We 
are proud of our program.
    Mr. Chairman, that concludes my testimony. I will be 
pleased to answer any questions.
    Mr. Oberstar. Thank you for that splendid report, 
especially those personal stories that you included in your 
prepared statement. Mr. Keith Kist off the runway project in 
Cleveland, Sean Langois from Manchester, New Hampshire, on a 
Recovery road-widening project. I have one myself. I have many, 
but one that sticks out in my mind was last August, on 
Interstate 35 between North Branch and Rush City, not cities 
that jump to the mind of Members outside the State of 
Minnesota, but it is 28 miles; that is 7 miles on a four-lane 
interstate highway, completely resurfaced, rebuilt. Magnificent 
project.
    I was first out at the sand and gravel pit to see the 
workers who have been called back to work in the gravel pit and 
providing aggregate for the highway project. The foreman called 
one of the trucks over to the side, those big, long belly 
dumpers that you see on highway construction projects. The 
driver shut off the engine, got out of the cab, jumped on the 
ground, and she threw her arms around me and said, Oh, you're 
Jim Oberstar. Thank you for my job. And I said, No, you thank 
the Congress, thank the President, everybody that voted on it.
    But she said, A month ago my husband and I were sitting at 
the dinner table, the two boys had just gone to bed, and we 
were looking at each other, wondering where do we go from here. 
Our unemployment comp has run out. We don't have any health 
insurance. We have got 2 months savings left for the mortgage. 
Are we going to be able to send the boys to summer camp, as we 
have done in the past? And we just hugged each other and cried.
    The next day, Ninth River Construction called and said, 
Report for work on Monday. This was a Wednesday. We won a 
Recovery Act bid for this project. She said, We are now getting 
a payroll check instead of an unemployment check. Of course, 
that ran out; the unemployment check ran out. They were making 
their payments on the mortgage. If we can get 1,200 hours on 
the job, we get our health insurance reinstated. And, yes, the 
boys went to summer camp.
    That is the human face of recovery. That is the story. That 
is two of the workers, as you said, but there are now 230,000 
of those on construction projects all across America. If we add 
up all the other programs under our Committee jurisdiction, we 
have 857,000 construction workers on the job, getting a 
payroll--not getting an unemployment check; getting a payroll 
check, paying for their own health insurance and paying taxes. 
That is the human face of recovery.
    Now, as Ms. Duncan said earlier, our regret in this 
Committee is we didn't have $700 billion to use and to invest. 
It could have all been spent well, effectively, fast, and with 
these great results.
    Mr. Duncan, do you have any comments?
    Mr. Duncan. Well, thank you, Mr. Chairman. We still need a 
lot of work, because I believe when the stimulus was passed 
unemployment was 8 percent, and now it is at 10 percent. As 
even as popular as my area is, the Knoxville area is doing 
well, but I have got one county that has 18 percent 
unemployment and another one that has 14.5 percent 
unemployment. And Tennessee as a whole is at 10.5. So there are 
still a lot of people hurting out there, as you know.
    I am going to yield, though, for questions to my Members 
first, and go to Mr. Coble because he was the first one here.
    Mr. Coble. I thank you, Mr. Duncan. Mr. Chairman, you and 
Mr. Duncan pretty well covered it in your opening statement.
    Mr. Secretary, good to have you with us. Mr. Secretary, how 
State and other stimulus grant recipients report jobs has been 
somewhat controversial in the past few weeks. Does DOT have a 
standard by which they expect States and stimulus grant 
recipients to abide by when counting and reporting jobs?
    Mr. Porcari. The short answer is yes. They are reporting 
jobs to DOT. The section 1512 requirements in the Recovery Act 
are a separate reporting requirement that, quite frankly, was a 
little bit new to many of our recipients. Our highway 
recipients, State DOTs in particular, are very used to doing 
this. For transit and aviation, recipients, the 1512 reporting, 
which is direct jobs, was a somewhat different requirement, and 
had a bit of a learning curve.
    With that, 96 percent of our recipients reported their 
numbers. The 45,000 direct-jobs created number for the 
transportation projects to date, if anything, is conservative, 
and it is one that we believe will be refined going forward 
with this quarterly reporting.
    Mr. Oberstar. Will the gentleman yield? That is a very 
important point because the Vice President's office issued a 
Recovery Act report that was filled with computer errors. 
Garbage in, garbage out. We had 27 congressional districts in 
Minnesota to my great surprise. But the reporting process that 
the Department is using was initiated in this Committee from 
the county highway engineers of Minnesota, who use a thumb 
drive about the size of my thumb, one of those little things 
that you and I aren't very familiar with but those engineers on 
the jobs know. They report on the hours worked, the loads of 
sand and gravel brought to the job site, the cubic yards of 
concrete or asphalt poured, and they report that to MNDOT, and 
MNDOT is reporting directly to the Committee and we harmonized 
this reporting with Federal Highway Administration and U.S. 
DOT.
    So this Committee initiated it and all the States are doing 
the same thing. They are all reporting using the same profile, 
same data, same computer base, and you can go into our Web site 
and find all the data that you have before us right now, that 
this Committee initiated.
    Mr. Coble. I thank the Chairman.
    Mr. Oberstar. I wish the other portions of the stimulus had 
done the same thing. Our committee, we are holding their feet 
to the fire.
    Mr. Coble. I thank you for that, Mr. Chairman. If I may put 
another question.
    The FRA is preparing to willing to award an $8 million 
appropriated amount in the stimulus bill for high-speed rail 
projects, and North Carolina is one of the States that have 
made the application. How does DOT see the high-speed rail 
program developing, and specifically do you anticipate that a 
significant portion of these funds will be used for true high-
speed rail; that is to say, projects that will compete with air 
travel by providing 200-plus miles per hour?
    Mr. Porcari. The high-speed rail $8 billion is most likely 
to fund a mix of projects, including, sir, truehigh-speed rail. 
I would point out that the definitions of high-speed rail can 
differ. You typically don't start with 200-mile an hour 
service. You typically are starting with a dedicated right-of-
way and high-speed service at 110 miles an hour or above, 
building to 200 miles or 175 miles an hour or whatever.
    We are in the very beginning stages of trying to get to 
high-speed rail. Although we do anticipate that we will have 
true high-speed rail projects, they are not likely to be at 200 
miles an hour right out of the box. You need to actually build 
toward that, just as the interstate system was built as a 
system and wasn't built in one round.
    Mr. Coble. When do you think that may come into 
realization, Mr. Secretary?
    Mr. Porcari. Different projects are at different levels of 
development. Some are fairly advanced in that they have the 
right-of-way, for example; may have some design work done. 
Others are a little further behind. I would point out that even 
at the 110-mile an hour definition of high-speed rail, that is 
a very significant advancement over what we have in the 
country, and we would anticipate that these projects would 
build up from there.
    Mr. Coble. I thank you for that. Mr. Duncan, I thank you 
for yielding. I yield back, Mr. Chairman.
    Mr. Oberstar. Thank you, Mr. Coble.
    Ms. Norton.
    Ms. Norton. Mr. Porcari, I sat in another hearing with 
another Committee on which I serve, a tough hearing, a 
Government Reform and Oversight hearing, in which we learned of 
some of the errors that were made. Frankly, I want to 
congratulate you and the Committee and the administration for 
doing what has never been done before. No one has ever tried to 
count jobs in process in real-time the way we are. And so it is 
a start-up process for us. You had to be shovel-ready, but you 
had to do something you have never done before, and mistakes 
were inevitable, but I hope we will continue to do it. And I 
congratulate all involved for attempting to do something that 
was risky but I think necessary to be done, even with the 
almost inevitable mistakes that would be made.
    I am interested in the work of this Committee in a real 
sense because it is a centerpiece. We know from the data, 
indeed more than tax cuts, that transportation and 
infrastructure spending not only creates jobs itself but, 
importantly, wakes up other sectors. I wonder if you have any 
sense of the other sectors down the line which perhaps are not 
construction jobs. And we know that the impact there has been 
dramatic. Other sectors that have in fact come to life in 
greater measure because construction and transportation 
infrastructure has started that process.
    Mr. Porcari. It is a very good question, ma'am. As you 
point out, the 1512 reporting requirement is unprecedented in 
transparency. It is the right way to do it. It was a learning 
curve, particularly for some of our smaller partners. For 
example, High Point, North Carolina, where you have one person 
who is doing the grants administration, who is coding all this 
data, and has never been through all this before. We expect it 
will be much better the second time around with the next 
quarterly report.
    But I would also point out that is the most conservative 
measure of jobs. Those are the direct jobs only. Typically, in 
economic development you are measuring direct, indirect, and 
induced jobs. We know from specific projects, we know from the 
feedback from our State and local partners, that that is 
certainly happening around the country, that in the most true 
sense transportation investments are an enabler for economic 
development.
    It is just one example, if I may. As the Chairman mentioned 
earlier, when this bill was being considered and when it was 
passed, I was a State DOT Secretary, like my colleagues on the 
next panel. Knowing that we had to deliver projects and knowing 
how bad it was and people were hurting, we followed the 
progress of the bill every day. We met with the contractors and 
the contractors' associations. We gave them a timeframe for 
when the work packages were coming out, asked them not to lay 
off people in the meantime, told them what the contract 
packages were likely to be, and even awarded contracts 
conditionally so that literally when the bill was passed they 
could rehire workers or, more importantly, not lay them off.
    I make that point because there has been some controversy 
over the "jobs saved" part of it. I can tell you from personal 
experience I know there were jobs saved because they knew the 
work was coming, they knew when it was coming, and they were 
clearly bidding the jobs just to make payroll.
    The kinds of projects you see around the country, 
especially the ones that are focused in economically distressed 
areas, clearly have the potential for creating economic 
development and the ripple of jobs beyond the direct 
construction.
    Ms. Norton. With every construction project you have got 
suppliers, you have got design people, you have got all their 
office people. Somebody one day needs to do a chart that just 
shows how many people down the line come alive because of 
construction.
    One further question on training. Would you tell me this; 
you got your training fund out, as I recall, fairly rapidly. 
How is your training being done with the amount of funds you 
have, which obviously aren't enough to cover every project and 
the need, how is that work being accomplished? Are you reaching 
groups that have been often excluded from the construction 
trades, like women and people of color?
    Mr. Porcari. Yes, we are. This is an important part, as you 
point out, to make sure there are opportunities in the future, 
and also, as the workforce ages, to provide the workers of the 
future. The on-the-job training and supportive services program 
from 1998 to 2009, first of all, has allocated over $65 million 
for this purpose. Within the Recovery Act, the $20 million that 
is specific to this, $8.2 million has been allocated to the 
States and the Bureau of Indian affairs in the first round. 
That is going directly toward the intended purpose of training 
for our historically underrepresented populations.
    These are good-paying, family-supporting jobs. Having the 
kind of training that enables you to compete for these jobs is 
one of the missing elements. We think it has been very 
successful. We look forward to implementing the rest of that 
program. It is, I think, a guidepost for the future in many 
ways in making sure that we have trained, skilled workforce 
available.
    Ms. Norton. Thank you very much. Mr. Chairman, I have a 
bill, a larger highway bill that would in fact use this 
experience to make sure the training occurs when you have that 
big bulk of money coming out of here as well to carry on what 
you have already started.
    Thank you, Mr. Chairman.
    Mr. Oberstar. Thank you for raising that issue and for your 
response, Mr. Porcari. Those funds double what we have in 
current law in the SAFETEA legislation, plus provide an 
additional $20 million for bonding for minority business 
enterprises. And African American and Hispanic and women-owned 
enterprises have benefited from that provision in the bill, 
although only just under a million dollars has been allocated, 
because they have to request it. Those requests haven't been 
forthcoming.
    Mr. Cao.
    Mr. Cao. Thank you very much, Mr. Chairman. Mr. Secretary, 
I was looking at some of the labor charts concerning Louisiana, 
and I have noticed that on a number of these charts Louisiana 
is ranking pretty low. If you were to look at the chart 
concerning, for example, percentage of allocated funds 
associated with project stages, highways and bridges, Louisiana 
ranks 42nd.
    Now can you clarify some of these numbers for me? How are 
these numbers being ranked and whether or not it is a Federal 
ranking or is it a State ranking or how are these numbers 
derived?
    Mr. Porcari. Sir, I think the chart that you are referring 
to is data generated by the Committee and it is the percentage 
of allocated funds associated with each State. I would point 
out that each State has a slightly different strategy for 
implementing the Recovery Act, depending on local needs and 
depending also on things like the mix of projects. Smaller, 
shorter term projects are typically already out the door. The 
larger projects are just coming online. And then other issues 
such as construction season, where that does apply.
    I would also note that some of the States that even a few 
weeks ago we had some concerns about moving quickly, we have 
been working with, and they have, as we understand their 
strategy and their mix of projects, some of them have made 
considerable progress.
    Mr. Cao. Could I ask you for specific numbers with respect 
to how much money has been allocated to Louisiana for highways, 
how much for air, how much for rail?
    Mr. Porcari. Yes, sir. For Louisiana, it is a total of $433 
million. For the air portion, it is $18.5 million, the highway 
portion is $350 million, and the transit portion is $58 
million. In addition to that, we have a small shipyard grant 
with the Maritime Administration for $5.5 million. I will be 
happy to provide that to you in chart form, if it helps.
    Mr. Cao. Sure. I have noticed that there is a discrepancy 
between funds allocated and funds obligated. So, basically, 
under funds allocated, the DOT basically provides a certain 
amount of funding for this particular State. However, I guess 
you are obligating the money as the projects are coming in. Is 
that how it works?
    Mr. Porcari. It has been obligated as individual projects 
are identified and approved. If I could take that one step 
further, the difference between obligated projects and outlays 
is an important one because the obligations, I think, are the 
number we should all be looking at. That means the projects are 
committed to. In many cases, they are underway. The outlays lag 
because with our highway projects we work on a reimbursable 
basis.
    We want the work to be done and done correctly before we 
pay for it. So just as you wouldn't--if you want to buy a new 
car, you pay for it when it is completed. Just as if you are 
building a house, you don't hand a check up front for the total 
cost. You make progress payments. That is the way our 
reimbursable process works. We make sure that the work is done 
correctly, then we reimburse the States for it. So it is an 
important distinction because the work is under way, the people 
are employed, but we are not turning over Federal dollars as a 
reimbursement until we know we have a project that everyone can 
be proud of.
    Mr. Cao. So with respect to the States that are moving 
slowly, is Louisiana one of them?
    Mr. Porcari. I would characterize Louisiana as one of the 
States that we are continuing to work with. Again, they all 
have individual strategies and very different needs. Our modal 
administrators and the Secretary and the entire team have been 
very directly involved in making sure that States have a viable 
strategy and are working quickly to get these projects out the 
door. Again, our yardstick more than anything else is, is the 
work under way, are the people employed.
    Mr. Cao. Mr. Chairman, I notice that I am out of time. Can 
you allow me just one more minute?
    Mr. Oberstar. One more question.
    Mr. Cao. One more question. Thank you very much. The 
Secretary was down in New Orleans I believe about 3 weeks ago 
and he made a commitment to light rail, I believe in the amount 
of--I can't remember the exact number--but the City of New 
Orleans has a lot of streetcar projects and things of the sort. 
How much of the money that was committed by the Secretary would 
go into light rail projects like street cars?
    Mr. Porcari. Sir, I don't know that number offhand. What I 
would be happy to do is get that information to you and report 
it back to the committee.
    Mr. Cao. Thank you very you much. Thank you, Mr. Chairman.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T4019.068
    
    Mr. Oberstar. Indeed, the St. Charles line in New Orleans 
is the oldest street car and the oldest light rail, as we call 
it today, transit project in America, begun in 1853.
    Mr. Cao. It is one of the projects that serves as the heart 
and soul of the city. So we are hoping to have more projects 
like that.
    Mr. Oberstar. And I would like to supplement Mr. Porcari's 
response, and that is all 50 DOT secretaries or commissioners 
were convened in Washington before the Recovery Act passed the 
House, and were counseled at our request, our Committee 
request, on what we expected of them; how we expected the 
projects to go out; what we intended by so-called shovel-ready, 
but projects ready to go through right-of-way acquisition, EIS-
completed, final design and engineering. All they needed was 
the money to go to work and that we expected these projects to 
be under--in the House bill, to be under construction in 90 
days or you lose the funds. That got watered down in conference 
to 120 days, obligated--it is a little different term from 
under contract--that is "obligated" as budget speak, but there 
was no excuse for any State DOT not to understand the purpose 
of this act. They have known it, they heard it from the 
Committee and Federal Highway Administration and from U.S. DOT, 
and the purpose of this accountability was to prod those who 
were laggers into taking action and getting themselves 
underway. And our monthly reports have had that effect. And to 
their great credit, the State DOTs have responded.
    I am going to reverse the order, we are going to alternate 
between senior and junior Member. So we will go to the most 
junior Member, Mr. Garamendi.
    Mr. Garamendi. That is an honor I had not expected, Mr. 
Chairman, but I do just want to compliment you.
    Mr. Oberstar. You are the only one who sat down there, in 
that front row down on the end where the Chairman doesn't 
notice you. But I notice.
    Mr. Garamendi. Once again, I thank you. And I really look 
forward to working with you. I want to compliment you on your 
work here and particularly the extraordinary effort that has 
been made to hold accountable the States, having less than 35 
days ago, 30, 40 days ago now, been a State official. We know 
your lash has a sharp and heavy hit, but now that I am on this 
side, we have a different point of view.
    I think the question that I would like to really raise here 
is about the issue of "obligated" versus money actually out and 
the shovels, and the other equipment actually working, and the 
men and women working on those. How do you account for that and 
is the money just obligated or is it actually--are people 
actually being employed in projects underway?
    Mr. Porcari. It is an important question because in this 
case, the term "obligation" means that there are projects 
identified and committed to; it also means projects underway, 
and there is a mix of that under the rubric of "obligated."
    From a jobs perspective the important thing to realize is 
that "obligation" is the trigger when contractors are looking 
and saying, I am not going to lay off additional people, or I 
may need to rehire or hire additional people to fulfill that 
contract, or even compete for it. So the "obligation" trigger 
is really, in job retention and job creation terms, I think a 
very important milestone.
    We have the great advantage in delivering these projects in 
the bill, working within our existing--for the most part our 
existing mechanisms where we have these existing relationships 
with the States. This is how projects work at the State level 
on a reimbursable basis. The States are used to it and the 
contractors are used to it.
    So it is meant that the important part of this, getting 
projects underway, has happened very quickly. The outlays are a 
lagging indicator, because, as I mentioned before, we don't 
reimburse the States until the work is either done, in the case 
of smaller projects, or we are making progress payments in the 
case of larger projects. That protects the Federal interest 
here. It is the best of both worlds in that we have the work 
going on and we know that we are going to get a good product at 
the end. So you know, again, just like buying a car, you wait 
until you have a product and then you pay for that.
    Mr. Oberstar. Would the gentleman yield? This is a very 
important point this is a reimbursement program. We have 
instituted the stimulus on the same basis as the regular 
surface transportation program. It is a reimbursement program. 
And the reimbursement is a lagging indicator. Jobs precede the 
budgetary effect. That is where Larry Summers is dead wrong; he 
just don't understand this. I don't know how many times I have 
to say it until he gets it.
    Thank you.
    Mr. Garamendi. Well, Mr. Chairman, maybe we can repeat that 
again. One of the issues that I know the States have, and 
certainly California does, is serious budget problems, so 
serious that the bonds that have been approved by the voters 
cannot be sold because we can't--because the State can't pay 
for those--the debt on the bonds.
    In the short term, could this thing be flipped so that the 
Federal money might come first and then the State money 
following as the economy begins to improve? I know that is 
exactly opposite of what the Chairman just said, but if we want 
to move things very quickly, we have got billions of dollars, 
bonds available but not sold.
    Mr. Porcari. There is no easy way to do that, sir. It would 
be, I think very, in practical terms, very difficult to do that 
and get the projects we want. What we focused on is making sure 
the reimbursement process moves as quickly as possible.
    We do daily reimbursement. So literally when there is a 
valid invoice in, we can approve that reimbursement that same 
day. From a cash flow point of view that helps the States as 
much as possible.
    The other thing that I point out is the structure of the 
bill itself by providing 100 percent Federal money; and, again, 
having lived this as one of the State DOT secretaries. I know 
there are many, if not most States, that could not do these 
projects if they had to come up with a match. So I think the 
single biggest help we could be to the States was to have 100 
percent Federal money to get the jobs and get the projects out 
there.
    Mr. Garamendi. Mr. Chairman, I yield my time. And I thank 
you for the courtesy and the opportunity.
    Mr. Oberstar. Mr. Shuster--Ms. Fallin.
    Ms. Fallin. Thank you, Mr. Chairman. And, Mr. Secretary, 
thank you for coming today. We appreciate your time and we 
appreciate the Chairman's work on this very important issue of 
building up our infrastructure, our Nation.
    I had a couple of questions on the high-speed rail money 
and the TIGER Grants and how fast--I heard you say some of the 
money may come to the States in January, February. But how will 
you determine what the priorities will be throughout the Nation 
in individual States? I know in Oklahoma we applied for several 
TIGER Grants and we have some areas in Oklahoma, an area 
between Shawnee and Oklahoma City, where we have major 
companies that ship freight rail to Oklahoma City, but the 
track is so bad for freight that it is actually causing us huge 
time delays and job losses, and major manufacturers.
    I guess my question is how will you determine as an 
administration what States get--what portions of money and what 
the priorities will be when you award those TIGER Grants in the 
high-speed rail.
    Mr. Porcari. First, for the TIGER Grants and the high-speed 
rail, we have moved up the timing so we are anticipating award 
of those projects--announcement of those projects at the end of 
January, which is about a month earlier than originally 
envisioned. We have a very intensive review process in both 
cases, for both TIGER and high-speed rail projects. These are 
discretionary grant programs. We are mindful of a number of 
factors, including geographic distribution.
    We do want to make sure, and knowing what we know at this 
point I am very confident that we have far more meritorious 
projects in both cases than we will have funding for. There has 
been an overwhelming response for both of those.
    We want to balance a number of things, including in the 
case of TIGER Grants, making sure that the kind of intermodal 
projects of regional and national significance that don't have 
a built-in home in our existing programs, aren't easily 
accommodated in those programs, are given strong consideration. 
The transportation network functions as a network and these 
intermodal connections are one of the weak spots, if you will. 
That is one important consideration.
    On high-speed rail we need to make sure that we have 
projects that can both move ahead quickly but also that can be 
the nucleus of what will be a network and that, at least in the 
long term, are not just stand-alone projects that would have 
independent utility but are part of a larger network. That is 
an important consideration for both of those.
    We have interdisciplinary review teams across the modal 
boundaries that are looking at the merits of those projects. I 
am highly encouraged by the review process so far, and we will 
work very hard to make sure that the strongest projects with 
the most merit that serve the country as well as possible are 
the awardees.
    Ms. Fallin. I appreciate your answer, Mr. Secretary. But as 
you move through this process, I hope that you will keep in 
mind States like mine and Oklahoma where we have a lot of rural 
areas and where transportation, and especially freight 
transportation through rail, is important; because, as you were 
talking about, looking at centers of economic activity that 
might lend to bigger States with bigger populations, with more 
transportation infrastructure than what a State like mine that 
is more rural would have. And while I may not be a center of 
hub activity economically, in some areas of my State I can tell 
you the one rail line that I mentioned, that it services many 
companies that have international connections, but it is in a 
rural area of Oklahoma that connects to our capital city.
    And if that rail, which is almost unusual because of water 
problems with a river that runs along the sides of the roads, 
the train tracks and the sodding, I guess you would say, the 
soil around that track, if that rail goes down that cost a 
community 500 to 1,000 jobs.
    So part of the purpose of our stimulus package is to create 
jobs and to save jobs. So just as you look at the priorities 
and look at where you will be spending that money, that I hope 
that you will not overlook some of the smaller States and rural 
areas that do actually have jobs and need this kind of money.
    Mr. Porcari. It is a very valid point. We are balancing all 
those things. It is a transportation network, and we tend to 
think about moving people sometimes more than goods. The 
economy doesn't work unless we move goods efficiently as well.
    Ms. Fallin. Thank you, Mr. Chairman, My time is up. Thank 
you very much.
    Mr. Oberstar. Thank you for that point. One of the many 
strengths of our authorization bill is that it has a very 
specific designation of funding for rural areas and farm-to-
market roads and freight corridors to connect urban to rural, 
rural to urban.
    And also I should point out that in the base Recovery Act 
for highway and transit, the legislation directs, establishes a 
priority for funding for areas of highest unemployment, which 
are larger and rural areas. And we directed the Department to 
use the formula established by the Federal Economic Development 
Administration which rates county by county throughout the 
United States and establishes their own employment rate. And we 
do have a chart showing how those dollars have flowed, and they 
have gone to benefit rural areas and counties with highest 
unemployment rate.
    We also had language in the House-passed bill that required 
DOT and State DOTs to allocate their funds equitably throughout 
the State, so the money would not all be concentrated in one 
geographic area. Unfortunately, that was diluted by the wisdom 
of the other body.
    Ms. Johnson.
    Ms. Johnson of Texas. Thank you very much, Mr. Chairman.
    Mr. Secretary, I would like to ask--the funds that were set 
aside or appropriated for highways were not designed, I guess, 
to get out very rapidly, because they use the same process. And 
we have that difficulty, not just with transportation in Texas, 
a State that does it the way they want to do it. Has that been 
a problem around the country or is it just unique to Texas?
    Mr. Porcari. In general, ma'am, the process actually has 
worked very well. If the yardstick you are using is are 
projects underway, are the jobs created or saved, some States 
have been more effective than others, and some States have been 
quicker out of the box. Those are typically the States that 
started with small, easy-to-bid, discrete projects. The States 
that had fewer but larger projects, some are in the $100, $200 
and $300 million ranks for single projects, those have taken 
longer as you would expect. We are starting to see those come 
on line now.
    There is no uniform approach among the States and it really 
reflects individual needs and priorities because, remember, 
what the States are working from, especially with the highway 
projects, are a very large needs list that has been long 
established, and they are working off the top of that list and 
sometimes moving around within that list based on how quickly 
they can get the projects out the door.
    I think the final result has worked pretty well, because 
every State has met every time obligation in the bill for 
obligating funds. They have just picked different ways to do 
that.
    Ms. Johnson of Texas. Also with the stimulus fund, there 
have been a number of cars purchased. Has that made a great 
impact for employment?
    Mr. Porcari. Yes. Separately, the car allowance rebate 
system, what we all refer to as Cash for Clunkers, had a 
measurable positive effect on the gross domestic product. It 
clearly, if you ask dealers, manufacturers, consumers, made a 
difference exactly when it was needed. It was quite an 
interesting program on the administrative side because what we 
expected would take 3 months or longer, which is $1 billion 
worth of consumer activity, happened in 5 days. That is some 
indication of how important it was. The environmental benefits 
we got from it, the shot in the arm to the economy, I think was 
a home run. And with that, we are very happy to be wrapping up 
the program.
    Ms. Johnson of Texas. Thank you. I know you came down for 
one of the projects, which I thought was very appropriate. They 
had run out of money when they got to a small bridge, and they 
were able to complete it.
    Thank you very much and thank you, Mr. Chairman.
    Mr. Oberstar. Thank you. Mr. Diaz-Balart.
    Mr. Diaz-Balart. Thank you, Mr. Chairman. May I put the 
Chairman on the spot when you recognized the newest Member of 
the Committee and you said we had all been there. Wasn't it a 
couple of years ago since you have been in that front row?
    Mr. Oberstar. Well, it was just a couple of years ago. And 
I remember Mr. Jones was Chairman of the Committee and he gave 
all of us new Members 1 minute to say something.
    Mr. Diaz-Balart. Just a few years ago.
    Mr. Oberstar. Just a few years ago.
    Mr. Diaz-Balart. Thank you, Mr. Chairman.
    Two statements, Mr. Secretary. Thank you for being here. 
Just to put something in your ear. The Florida legislature just 
finished a special session this week to deal with, frankly, an 
initiative that had kind of dropped the ball on dealing with 
rail and high-speed rail. And I just want to make sure that you 
are aware of that and that you don't disregard that very 
important step that was just taken by Florida, a State that was 
also invested heavily in multimodal centers, et cetera. So I 
just wanted to make sure you are aware of that.
    Mr. Porcari. I am, and thank you for bringing it up. We 
have been watching closely, and I appreciate the very positive 
step forward made by the legislature.
    Mr. Diaz-Balart. Thank you, Mr. Secretary.
    Just a statement if I may, Mr. Chairman. I don't want to 
say I--or, more particularly, you, Mr. Chairman, and this 
committee--I told you so, we all told you so. And nobody was 
more aggressive than the Chairman, Chairman Oberstar and the 
Ranking Member on trying to really maximize funds for 
infrastructure, as opposed to other things. Infrastructure 
funding, as we see from this administration, that is what 
emphasizes the success of the stimulus.
    Unfortunately, very little money went to infrastructure, 
and now we are seeing the results of where some of that money 
went. If the Chairman would have been listened to--and which is 
why he has had the support of this committee--I think we 
wouldn't be seeing all the scandals, Mr. Chairman, that we are 
seeing and we are reading every single day now that we are 
seeing, again not dealing with transportation, Mr. Secretary. 
Part of the reason is because there is a well-established 
system, and part of the reason I think is because of the 
oversight of this Committee through the leadership of this 
Chairman. But we have seen other places, frankly, hundreds of 
millions of dollars of waste.
    Now we are seeing political consultants getting stimulus 
money. We see not it only nationally, but I have seen it 
locally in my community, political consultants are getting 
stimulus money, again, not meant for transportation.
    You know, if that happens in other countries we don't call 
it waste. We call it outright graft and corruption. And that is 
what we are seeing with hundreds of millions of dollars that is 
not going to help people who have lost their jobs. And, again, 
if this happened in other countries, we would not call it 
waste. We would not have that political correct term that it is 
waste; it is cronyism and actual corruption. And we are seeing 
that widespread every single day from the so-called stimulus 
bill.
    Every day that goes by, we read another instance of fraud, 
corruption and waste, but where that has not happened is--at 
least not to the degree, not to that degree--is in 
transportation infrastructure.
    And Mr. Chairman, you know, I have said this before. We may 
have disagreements on specifics of the transportation bill, but 
where there is no disagreement is that it is a national 
priority and it must be a national priority. I just hope that 
this administration realizes some of the mistakes that have 
been made, realizes that transportation infrastructure is 
essential. And if we really want to have something that this 
Congress and this government can do to get the economy going, 
it is to pass the reauthorization bill that this Chairman has 
been working on for a long, long time, and stop postponing it 
and stop wasting time, and finally get serious about passing a 
real infrastructure reauthorization bill.
    This Committee through the leadership of this Chairman has 
shown that he is not willing to accept waste or fraud or abuse 
of the taxpayers' money, and it is time to get serious and pass 
that bill. I just hope the administration finally starts 
listening to this Chairman.
    Thank you, Mr. Chairman.
    Mr. Oberstar. I thank the gentleman, I will send that 
transcript over to the White House.
    Mr. Teague.
    Mr. Teague. Yes, sir. Mr. Chairman, thank you for having 
this meeting today. And the one thing about talking later is 
people have said almost everything. But a couple of things that 
were brought up that I would like to know is, we talked about a 
lot of different terminology here, but which terminology, which 
words will tell us exactly when we have jobs on the ground and 
when we just have money allocated?
    And from listening to some of the other Members speak about 
things in their statement, we might want to address how we--you 
know, the way we have processed these funds before is give them 
to the States, and they process them the same way that they do 
their annual appropriations for roads and things like that. And 
if they are not going out properly and doing the jobs that we 
think should be done, being used for different things, maybe we 
need to look at a different way to allocate the funds.
    Mr. Porcari. First in terms of terminology, sir, think 
about it as "obligated" equals "jobs." When the projects are 
obligated, that is when the job cycle begins. Where the jobs 
are either preserved or created, that is when you have a 
project that is identified. The obligated category also means 
projects that are actually underway. And as you know, we have 
over 7,000 projects underway around the country right now.
    So the distinction I was trying to make before is 
"obligated" is really when it matters in terms of both 
preserving and creating the jobs. The outlay part where we have 
actually reimbursed the States is the very end of the process. 
We reimburse. We don't give Federal money to the States, for 
example, for a highway project, until we have a project that is 
built correctly and inspected. That is the process we use every 
day. It is the process that we are using in the Recovery Act. 
And honestly, it has served us very well. If we were to have a 
problem with an individual project, if it was inferior in some 
way, they wouldn't get reimbursed. So I hope that answers that 
question.
    And again, I think one of the advantages of us delivering 
projects through this bill in the existing project delivery 
mechanisms is the State and local partners know how it works, 
they are used to it, they are used to the oversight and 
inspection that is required, they know they have to deliver a 
project before they get the Federal money. And all in all, I 
think it has worked very well.
    Mr. Teague. So you think that probably using this process 
has expedited the approval and completion of start obligation 
outlay and all of the jobs.
    Mr. Porcari. Absolutely, sir, I do. I am speaking both as 
the deputy secretary, but also in the early days of this bill 
as one of the people delivering projects as a State DOT 
secretary. You know how it works, you know where your projects 
are. If you are hustling and you have teed-up the projects, you 
can literally flip a switch and start the work as soon as the 
bill was signed. And that is exactly what we did.
    Mr. Oberstar. Mr. Shuster.
    Mr. Shuster. Yes, thank you very much.
    Thank you, Mr. Secretary, for being here today. It seems 
like every month you and I run into each other somewhere.
    I want to first of all echo the remarks of the gentleman 
from Florida on transportation spending and stimulus money. I 
believe, as many of us, maybe every one of us on this Committee 
believe that a larger portion of stimulus dollars should have 
gone into transportation infrastructure funding. And I think we 
would have seen a greater return than we have. And, of course, 
there are a lot of questions out there as to what really is the 
return, what are the jobs. It is a very difficult thing to 
measure.
    But, again, I really wish we would have focused--and maybe 
it is not too late, some of those dollars that are still out 
there, take them and turn them into transportation 
infrastructure dollars and get them to work for America, 
because it is critical to this country.
    It is 11:30 in the morning an I look out here, and every 
person in this room has been affected in a positive way by the 
transportation system of this country. Everybody got here 
somehow. This water got to me on a truck and was brought into 
the Committee room. As we go about our day, every interaction 
that we have as a purchaser, or getting to and from, we come in 
contact with the transportation system. Everybody, all 320 
million people in America, have that same impact every single 
day, and I think we need to focus more on that and the 
benefits, the long-term benefits that it brings to the country.
    Concerning the Department of Transportation's--we were 
talking about the jobs and it has been quite controversial as 
to how we are recording it and what the process is. Do you have 
a standard at DOT that you put out to the States that they are 
responding in a uniformed way across the 54 States to ensure 
that we are getting accurate reporting? I have looked at some 
of the Committee documents and some of DOT. And obviously they 
are slicing it different ways. But what are we doing to ensure 
that we are getting accurate figures from the States?
    Mr. Porcari. Well, first, sir, the States are used to the 
DOT definition of job reporting, and I think are very 
comfortable in continuing to put together those numbers. There 
are a couple of separate reporting requirements and that is, 
quite frankly, part of the confusion here. The most strict 
definition is the section 1512 reporting requirements in the 
recovery bill, which are just direct jobs. And that is 
reporting from the recipients directly to the Recovery 
Accountability and Transparency Board. Those are the recipients 
putting together the numbers themselves. And that is where the 
45,000 job number to date comes from.
    Because it is only direct jobs, the most conservative 
measure. Because it is the first time that those jobs were 
reported that way, there were some errors by the recipients. We 
had one State, for example, that reported the correct numbers 
but miscoded it, and these came out as Veterans Administration 
projects. We have since corrected that.
    We have also had recipients that weren't States but very 
small entities--transit, for example--that are not used to 
reporting, who have made some errors, and we have been working 
with them throughout this process individually to try to get 
them up the learning curve on that. I think that has actually 
been largely successful.
    Mr. Shuster. When you say "direct jobs," do you have a way 
to determine if we are talking about a job for a month or are 
we talking about a job that lasts 6 months or 6 years? That is 
a concern of a lot of what we are seeing out there across the 
board in stimulus, but even in transportation spending these 
are not long-term jobs, these are--they are out there for a 
month or 2 months and then they go away.
    Mr. Porcari. For the recovery part of the Recovery and 
Reinvestment Act, getting jobs out there right away is the 
priority. It is clear that these projects did it. The reporting 
is by jobs. You could also do it by hours. There are lots of 
different ways they could actually be structured, but what you 
are seeing in that particular reporting is a snapshot picture 
based on the reporting deadline.
    Mr. Shuster. And would it be your view that having a long-
term highway bill would have a much greater impact on the 
economy, on the industry, than this short-term infusion of 
cash?
    Mr. Porcari. We do know that a consistent and predictable 
long-term funding program for transportation is critical. My 
State colleagues, for example, as they have large, multiyear, 
very expensive projects, you need that kind of consistency and 
predictability.
    Mr. Shuster. It ripples through the economy. I think as you 
will hear later, as a highway contractor aggregate company is 
going to testify here, and my discussions with them, is they 
are not making the long-term investments because they are not 
sure what is coming down the road as far as funding.
    So I hope that you and the administration are making those 
arguments to the President and to OMB that it is critical we 
have a long-term bill here that will be positive for this 
country.
    So thank you, Mr. Chairman, I yield back.
    Mr. Oberstar. Thank you, Mr. Shuster. I completely agree 
and I am delighted to have the support of your side and our 
side. We don't have a side in this committee; we are all 
together. We need the long-term authorization bill. And I am 
glad the Secretary is traveling around the country getting 
ideas. You can start right here.
    But our Committee printout, Mr. Shuster, does provide for 
every State, right down to total job hours created or 
sustained. Every Member has received a copy of this. In 
Pennsylvania, it is 1,393,411 hours of work in the Clean Water 
Revolving Fund, Fixed Guideway Highway Infrastructure, and 
Transit Capital Assistance.
    Mr. Shuster. I have it.
    Mr. Oberstar. You have got it right there, good. I just 
have to say it again: This is the only Committee that is doing 
this kind of accounting.
    Mr. Oberstar. Ms. Titus.
    Ms. Titus. Thank you, Mr. Chairman.
    Now, coming from Las Vegas, I thought I had seen 
everything. But I continue to be amazed when people who voted 
against the stimulus complain that they are not getting enough 
money and they aren't getting it fast enough. But aside from 
that, Mr. Secretary, I appreciate the fact that you have been 
working with the States. I don't mean to beat a dead horse, but 
Nevada keeps coming in 48, 47, in terms of these lists that we 
have and getting the money out and getting the projects 
underway.
    The work that you have been doing with the different 
States, maybe you could tell us, are there any additional tools 
that you need that we could provide for you? And if we do, more 
money for these kind of projects that would make it work 
faster, especially in States like Nevada that have such high 
unemployment rates.
    Second, have you identified any best practices as you met 
with these States that could be used by the rest of us to do 
better?
    And third, sometimes it is the politics of a State that 
hold up the process. Our Governor, for example, refuses to put 
up signs that say, "This project was funded by recovery 
dollars." So have you thought about giving more money directly 
to like the regional transportation commissions or the local 
government instead of just through the States?
    Mr. Porcari. Well, first, we are using the mechanisms 
specified in the bill to get the projects out the door. We have 
been working individually with States to do this. In fairness 
to the States I would point out that they also have different 
requirements. Some of them were required to operate under 
pretty extensive consultation and approval processes, sometimes 
at different levels of State and local government, before they 
could actually have a project list that they would submit for 
recovery projects. Others had worked that out in advance, and 
that does account for some of the difference.
    From Secretary LaHood on down, we have been working 
individually with States, where necessary, trying to make sure 
we have strategies that help get these projects out the door.
    We have, through our division administrators in Federal 
Highways, through our regional administrators in Federal 
Transit just to mention two examples, we have individuals who 
are actually highly skilled at work, and have the working 
relationship with the individual States to get those projects 
going.
    The intent in terms of jobs was really to make sure we had 
a continuum of jobs, we got projects underway quickly, we are 
creating jobs quickly, but also sustaining that over an 18-
month or longer period. And what you are seeing now in some 
ways is the second stage of the rocket, where the early 
projects are actually mostly completed, and the larger more 
complex projects, as we get into the second stage of the rocket 
here, they are underway now, or will be shortly.
    Ms. Titus. I guess as we talk about a jobs bill that we are 
hoping to get out now in the next couple of weeks, or early in 
the new year, with more dollars to infrastructure, are there 
ways that we can do it better in the next cycle is what I was 
looking for.
    And, really quickly, your comments earlier about the 
super--high-speed rail that you said you build up, you don't 
start at 120 or 200 miles an hour, does that mean that the 
Maglev project that has been proposed from Las Vegas to 
Southern California is out of the running?
    Mr. Porcari. No. And I didn't mean to infer that any 
individual project was out of the running. What I was trying to 
characterize is that there are different states of readiness 
for different projects. There are some places where there is 
right-of-way that can support high-speed rail today at 110 
miles an hour and want to build up from there. There are others 
that don't have the dedicated right-of-way or shared right-of-
way that would allow high-speed rail. We have a little bit of 
everything in terms of potential projects out there, but we are 
certainly not ruling out any potential projects.
    To your earlier point, it is a very valid one. There are 
best practices out there, and certainly lessons that we have 
learned from this. And we have tried to take those to heart, 
whether it is through additional work like this or whether it 
is through just the day-to-day project delivery mechanism. One 
of the things that the Recovery Act has really shown is that 
when there is--when we are really working in partnership, when 
we feel that sense of urgency-- and we certainly do feel that 
sense of urgency--we can get those projects underway.
    Ms. Titus. Thank you. Thank you, Mr. Chairman.
    Mr. Oberstar. I thank the gentlewoman. I just want to point 
out Nevada has consistently ranked in the lowest tier. But now 
they have reached the point of the lowest four. And, 
characteristically, each month I have joined Mr. DeFazio, 
sending a letter to the Governor of the lowest-ranking States, 
asking for an explanation and reminding him of the language of 
the bill which says projects that are ready to be under 
construction--not the ones that are going to take 6 or 10 years 
that you need 3 years to think about--the ones that can put 
people to work the quickest. So we will get on it.
    Mr. Larsen, you are next.
    Mr. Larsen. Thank you, Mr. Chairman. I have to say when you 
announced your policy of going highest to lowest, I turned to 
my colleague from New York, Mr. Arcuri, and reminded him this 
is what it is like to be a middle child. So wait your turn.
    Anyway, just a few points. If I could enter for the record 
a stimulus newsletter from the State Department of 
Transportation in Washington State, outlining up-to-date 
numbers for Washington State, including over 1 million hours on 
the State Department of Transportation projects alone, since 
February, with people earning about $40 million from working on 
those specific projects.
    And it goes through a variety of other statistics our State 
DOT is tracking to be sure that we are doing our job. So I will 
just enter that December 2, 2009 newsletter into the record as 
an example of how one State is watching its own self as we are 
moving forward.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T4019.069
    
    [GRAPHIC] [TIFF OMITTED] T4019.070
    
    [GRAPHIC] [TIFF OMITTED] T4019.071
    
    [GRAPHIC] [TIFF OMITTED] T4019.072
    
    [GRAPHIC] [TIFF OMITTED] T4019.073
    
    Mr. Larsen. This talk about numbers, accounting numbers, 
Mr. Porcari, it is important. And note on the next panel, the 
GAO will testify on transit, in addition to some other things, 
but on transit. And one of their conclusions is that some State 
transit officials and bus manufacturers are using different 
criteria to measure job creation and retention. And you 
testified earlier that in fact there was some consistency in 
counting job creation and job sustainment. So GAO is finding 
something different, at least when it comes to transit.
    Can you address that discrepancy for me and help me 
understand that? And, second, help us understand what you are 
doing to address that concern.
    Mr. Porcari. As to the first part, I am at a little bit of 
a disadvantage here. I haven't seen the GAO reports. I am not 
sure what the specific findings are. But we have been working 
with individual recipients on the job reporting, both through 
the section 1512 requirements and what are typically multiple 
reporting requirements for most transit agencies. We are doing 
that on an ongoing basis. In fairness to some of the transit 
properties, it is a new process for them. We will continue to 
refine it, and if there are individual issues that we need to 
address, we are committed to addressing that. Because I think 
an important part of the delivering here is delivering the 
projects, but also the credibility that comes with doing this 
right.
    Mr. Larsen. I agree the credibility is dependent. And it is 
important, this discussion we had earlier about what is 
obligation, what is appropriated, what is allocated. I 
understand those distinctions are important, but the 
credibility is really on who is working and who is not working, 
because that is honestly what we care about seeing someone 
work, which is why a lot of us voted for the Recovery Act.
    I will just note as well for Members, other Members have 
done this, I have visited about 19 or 20 separate recovery 
projects in my district, not all of them transportation, but 
half of them transportation. It is important to go see these 
not only because we can kind of work as our own watchdogs in 
our own districts, but also there are critics out there of the 
votes we have taken in the past Recovery Act. I would encourage 
Members to go visit those recovery projects in the district and 
make your own assessments and not read--we can read all the 
reports in the world, written by folks who have never been to 
my area of the country, probably think Washington is still this 
area. But in fact if they go out there and see these projects 
in place, see people working, and see a half mile of new road, 
with new sidewalks that makes it safe for kids to walk to 
school from the local neighborhood, they will have a better 
understanding of how these Recovery Act dollars are working.
    I just wanted to ask that question about the job numbers 
with regard to transit because there does seem to be some 
discrepancy.
    Finally on the FRA applications, is there a timeline on 
track 1 and track 2?
    Mr. Porcari. Yes. The current thinking, we anticipate 
awarding or announcing all of the awards, track 1 and track 2 
and others, at the end of January.
    Mr. Larsen. At the end of January.
    Mr. Porcari. Yes, which is ahead of the overall schedule 
planned before.
    Mr. Larsen. Okay, thank you. Thank you, Mr. Chairman.
    Mr. Oberstar. Thank you, Mr. Larsen. We have time--11 
minutes remaining on this vote. Mr. Hare.
    Mr. Secretary, by the way, do you have a time limit?
    Mr. Porcari. I am at the committee's----
    Mr. Oberstar. We have three votes coming up.
    Mr. Hare. Thank you, Mr. Chairman. Just for the record, I 
understand you were awarded the Player of the Week Award in the 
magazine, one of the magazines the other day. I would like to 
suggest that he should have been Player of the Year. You have 
been tenacious since we started this session on getting the 
highway bill and getting people back to work. And, you know, I 
want to thank you on behalf of all the people who have gone to 
work and those who who are going to go to work. You have never 
backed off an inch and I appreciate that.
    Mr. Secretary, you might have mentioned this, but for 
passenger rail, not high-speed rail, but for passenger rail we 
have, since my colleagues have talked about a couple of their 
projects I would get in trouble if I didn't mention mine. We 
have one going from Rock Island or Moline to Chicago, passenger 
rail. And I was wondering if those figures that come out or 
those announcements that come out, is that part of the--is that 
on the high-speed rail project?
    Mr. Porcari. The overall category for high-speed rail 
includes other tracks that are--some of them are shorter term 
upgrades than others. The whole package of improvements, both 
distinct high-speed rail projects and others, including some 
planning and design work, we anticipate being announced at the 
end of January.
    Mr. Hare. Because that would be 800 long-term sustainable 
jobs. So I would hope that we would be in the hunt there. You 
also mentioned the TIGER Grants. I think those are wonderful. I 
have a city in the southernmost part of my district, Quincy, 
right on the river, that is applying for a TIGER Grant. And my 
understanding is that would be hundreds of jobs for that 
community. So I think that is a great program. I talked to the 
Secretary about both of those. I think that is what we are here 
for, to try to get something done.
    I just want to ask one quick question. I know we have 
votes. There have been some critics of the Recovery Act that 
have complained about red tape that hinders the quick and 
efficient use of the funds. Have you found this to be factual?
    Mr. Porcari. No, I have not. In fact, to the contrary, 
because it is the same process that we have used for years for 
projects, where our State and local partners know the process 
and know what is required. That kind of consistency and 
predictability has actually been helpful to them, I think, in 
knowing how to get projects done.
    Mr. Hare. And then just the last one. You talked about in 
your testimony that the Recovery Act funding for transit has 
resulted in the purchase of almost 11,000 new vehicles. What is 
the impact of this investment, not only to the state of the 
transits but also on the supply chain that produces these 
buses?
    Mr. Porcari. It is a very good question because, obviously, 
the transit agencies benefit from that rolling stock, the buses 
or rail vehicles. But the manufacturing part of it--and there 
is a Buy America provision, of course, within this--has been a 
substantial boost as well.
    And, finally, I would note, going forward in high-speed 
rail, from the beginning Secretary LaHood has put a strong 
emphasis on the American manufacturing capability and potential 
for this. So as we get to the other parts of the Recovery Act, 
beyond the transit vehicles you mentioned, we have been 
delivering a clear, unequivocal message of our expectations for 
a durable, broad, and top-to-bottom American-based 
manufacturing capability for high-speed rail.
    Mr. Hare. I appreciate that. Thank you, Mr. Secretary.
    Mr. Oberstar. Thank you, Mr. Hare. Ms. Hirono.
    Ms. Hirono. Thank you, Mr. Chairman. This Committee has 
been a model for keeping track of what is going on with our 
money in our area of jurisdiction. So, Mr. Chairman, I know 
that it has not escaped your notice that on one of these charts 
that you provided, the State of Hawaii is number 50, but I do 
want you to know that, as the Secretary mentioned, the States 
are pursuing individual strategies and we have far less of a 
percentage, for example, on resurfacing projects. And the 
Federal Highway Administration just okayed a project which will 
probably put our State in the 87 percentile ranking, so I 
wanted to let you know that.
    Mr. Secretary, in the GAO testimony it was noted that there 
are many States that are awarding contracts for less than the 
original cost of the project. Are you making note of that? And 
is this something that we need to provide maybe a little more 
time for the States to obligate--reobligate these funds? That 
is my first question.
    The second question regarding the purchasing of all these 
buses, as we try to promote intermodal transportation. For 
example, I represent a rural area, as do many of us. Buses is 
the way that they are going to provide transit for their 
people. And so is this an area allowing or providing the 
opportunity for these rural areas to purchase more buses? Isn't 
that something that we ought to be paying more attention to as 
we reauthorize the transportation bill?
    Mr. Porcari. First, on the reobligation, it is a great 
point because many of the contracts have been coming in under 
engineers' estimates. That is obviously good news. That money, 
the savings get recycled and put into additional projects. We 
believe that the recipients can still add these additional 
projects within the time frames that are in the bill.
    One of things you are seeing, for example, involves the 
aviation portion of this at $1.1 billion. We have been at about 
99 percent completion for a month or two now, because the 
savings appeal--we keep adding projects to it. Again, that is 
good news, but I think we can all work within the time frame of 
the bill.
    The issue on buses in rural areas, clearly transit has a 
lot of dimensions. One important one is it is literally a life 
line in our rural areas. It is connecting people with jobs, it 
is connecting seniors with needed services and opportunities.
    Ms. Hirono. Definitely the case in my State.
    Mr. Porcari. We are mindful of that as the transit systems 
throughout the country all have really different strategies in 
many cases for what kind of service they are trying to provide; 
and for the most part, they have the discretion to pursue the 
strategy that best serves their customers.
    Ms. Hirono. Well, for a place like Maui, for example, they 
have the highest bus ridership in the whole country, I am told. 
They only have buses; there are no other mass transit modes. So 
I am thinking perhaps we should provide more funding for buses 
in these kinds of areas, because they don't have very many 
other options, frankly, besides the individual cars.
    Mr. Porcari. We do know there is far more transit need out 
there than we presently fund.
    Ms. Hirono. Thank you. Thank you, Mr. Chairman.
    Mr. Oberstar. We will recess for the three votes, and when 
we resume it will be Ms. Richardson and Mr. Arcuri, and, 
following them, other Members who return who may have follow-up 
questions. Because there were questions asked about TIGER 
Grants that supplement the previous comments, that the 
equitable distribution language does apply to the TIGER Grant 
Program, and I am sure the Secretary has that in mind as they 
go through this.
    Mr. Porcari. Absolutely.
    Mr. Oberstar. The Committee stands in recess.
    [Recess.]
    Mr. Oberstar. When the Committee rose, Ms. Richardson was 
next in line for opportunity to question. The gentlewoman from 
California is now recognized. I must also add that the 
gentlewoman led a delegation to Afghanistan. I don't expect you 
to report on that here, but she ismultitasking. We thank you 
for your vigilance in Afghanistan as well as here in the 
committee.
    Ms. Richardson. In fact, I made sure to look at Highway 4, 
which is a very big road and highway in Afghanistan, so I did 
our transportation work while we were there.
    Deputy Secretary, let me first of all say I want to commend 
you for the record. You have actually been to my district, and 
listening to some of our colleagues, it sounds like you have 
been a lot of places. That is all we can ask as Members is to 
have the various administrators engaged, knowing the district, 
having the knowledge to make good decisions. So I, first of 
all, want to commend you for that.
    Number two, what I would like to talk a little bit about, 
Mr. Chairman, when we first talked about the stimulus money, 
one of the things we said that was so important is that if we 
had all this money, we needed to make sure that not only were 
we doing projects on paving roads and all that, but somehow we 
were creating some networks that would make sense, and we would 
also deal with the unemployment at hand.
    I have a couple questions for you. We pulled up theFHWA 
Supplemental Guidance on the Determination of Economically 
Distressed Areas, and in section 301(a)(1) and (2), it talks 
about the guidance is based upon 80 percent of the national 
average in terms of per capita income, and then it says 1 
percentage point over the nationwide unemployment rate. But 
then later it talks about--there is a third section. It says, 
if a State feels that an area or a project meets some of these 
other criteria, business closure, threatening businesses and so 
on, that it could qualify under a distressed area section.
    What I would like to respectfully request for this 
Committee is that in the document it says that the State should 
be able to provide information as to how the State identified, 
vetted, examined projects located in economically distressed 
areas, and how the State selected projects based upon the 
priorities, preferences, conditions, and requirements of the 
Recovery Act.
    So, for starters, I would like to ask for the State of 
California, and then, of course, all of the States, for us to 
receive this information. How did they determine that the 
project was in a distressed area, and which section did it 
apply to? Did it apply to the economic per capita income, did 
it apply because it was of the unemployment, or did it apply to 
all these other "also rans"? Because it if applied a lot of 
these projects to the "also ran" category--and now I am using a 
horse metaphor--we really maybe have not completely solved some 
of the problems that we were hoping to achieve through the 
stimulus money.
    Let me give you an example of what I mean by that. You have 
been to my district. I don't think there are many districts 
that can compete in terms of total transportation: ports, 
airports, highways, roads, bridges, on and on and on, and yet 
when you look at the allocations, which I am very well aware 
that you don't determine, but what I would hope is that you 
would work with the various State DOTs to ensure that the hard 
work this Committee made to make sure this was done right, that 
it, in fact, is happening.
    So, for example, if you were to just look at the $44.6 
billion and divide them out by 439 districts, if you were 
looking at just straight equitable, it would be $102 million. 
That didn't happen. If you look at, as some of the Members 
talked about, districts that have very serious transportation 
needs, that didn't happen. I am not here--one of the things my 
Chairman has taught me, I am not here to embarrass any other 
Members, but I will supply you with the information that shows 
it wasn't even done based on that.
    So what I am hoping is with the remainder of the money we 
have that you will be able to work with the various States to 
ensure the things we hope to have achieved, which was the most 
critical networks, meeting the distressed area requirements, 
that the remaining money that we have maximizes in that effort, 
so moving forward and not crying about the spilled milk of what 
happened in the past.
    I just wanted to give you an opportunity to respond to 
that.
    Mr. Porcari. Thank you, Congresswoman.
    This is a really important part of the Recovery Act, the 
focus on economically distressed areas, and the aggregate 
nationwide number, economically distressed areas nationwide are 
39 percent of the population. But of the projects nationwide, 
57 percent of the highway projects and 60 percent of projects 
overall have been in economically distressed areas, and that is 
the Commerce Department definition. That emphasis has been 
there.
    I will tell you that Secretary LaHood personally has been 
stressing that both in written and verbal communications with 
the States, something that we have been very focused on. Where 
we have had discretionary grants, admittedly on a smaller 
scale, but the small shipyard grants, for example, because that 
was part of the criteria, we made it a very heavily weighted 
part of the criteria for the small shipyard grants, where we 
had that discretion, knowing that the jobs are doubly important 
in those economically distressed areas.
    We will be happy to get the information together for the 
Committee on the States and in this case California's 
individual efforts within economically distressed areas and how 
that has worked. Going forward, it will continue to be an 
emphasis of ours, as it has been from the beginning.
    Ms. Richardson. Mr. Chairman, my time has expired. Could I 
follow up?
    Mr. Oberstar. The gentlewoman has been patient coming back 
and participating, so the gentlewoman may indeed continue, but 
I will ask her to yield for a moment on thisEDA issue.
    This was one of my contributions to the whole stimulus, 
among many. I insisted that the House language--and it survived 
conference--include a directive to the Department to allocate 
their funds by the EDA formula.EDA has a well-established set 
of criteria by which it measures economic distress in the rural 
counties, in urban centers, and in parts of urban centers, even 
down into neighborhoods. The O Street Market project, for 
example, in Washington, D.C., was an example of a microtargeted 
project. This was several years ago.
    And then we asked also Federal Highway and DOT to report to 
us on the percentage of projects that are in EDA areas, 
percentage of funds obligated, and then the population of the 
State. California, 99 percent of the projects, the highway 
projects, went to EDA-designated distress areas. Ninety-nine 
percent of the funds obligated so far have gone to EDA-
designated stress areas.
    If there are some discrepancies the gentlewoman has, I want 
to know about it. Bring them here or bring them to my 
attention, and we will get on this. We will correct it. I know 
the Department will be totally participatory in this matter as 
well.
    Ms. Richardson. Yes, Mr. Chairman. You are exactly right of 
the report that you referenced. My question, though, was 
delving deeper. The report reflects that, yes, the majority of 
these projects have been in EDA areas. But if you read the 
criteria in the EDA, there are three different sections. And so 
what I am asking is that the report would reflect are the EDA 
areas because it is 80 percent of the income per capita; or is 
it EDA because it is, in fact, only 1 percentage point higher 
than unemployment; or is it, in fact, EDA, which I think we are 
going to find when we get this report, that a lot of it is 
because it is business closures, threatened business closures, 
military base closures, which some might argue, and I might 
once we see this information, that some of the criteria, one, 
two, or three--I would argue that one and two better meets why 
you put this language in here in the beginning. I don't think 
we intended that category 3 would be the majority of how those 
projects were selected.
    Mr. Oberstar. What I wanted so that there be clarity and 
simplicity and not arguable is to follow existing law. It is 
the simplest, the cleanest way. It is a known quantity, a known 
commodity. There is a practice. And then we leave it to the 
State to make these determinations. But these are the criteria 
that they can follow. It may be possible for States to 
subdivide that information, and we will pursue that.
    Ms. Richardson. Thank you, sir. It does say in their 
guidance that the States should be able to provide that 
information. So we are simply asking for that.
    The last question I would ask is the other big piece, this 
whole thing about the stimulus was: How many jobs? Several 
Members asked you questions, and you answered the question of 
46,400 direct jobs is what your testimony references.
    When we had our last meeting, which I believe was on 
October 1, we asked the question: Could you differentiate 
between how many of these were actually new jobs, and how many 
were people who already had contracts and they were able to 
maintain their jobs? If you look at all the language having to 
do with the stimulus, it was we maintained or created jobs. I 
am curious in your section 1512, does it differentiate between 
who was able to keep a job and who it was really a new person 
who was unemployed? I think the example that you gave in your 
testimony, can we differentiate between those two?
    Mr. Porcari. Ma'am, the 1512 reporting doesn't 
differentiate between retained or created. Again, those are 
just direct jobs in that one.
    Ms. Richardson. And so, Mr. Chairman, I would suggest that 
when you look at one of the biggest arguments that we are 
getting beat up in the public because we still have a high 
unemployment rate is: Has, in fact, the stimulus really dealt 
when that unemployment rate and got new people hired? So maybe 
we can explore when this is done really understanding are these 
new jobs or not?
    Mr. Oberstar. If the gentlewoman would yield.
    Ms. Richardson. Yes, sir.
    Mr. Oberstar. We asked, through AASHTO to all the State 
DOTs and through Federal Highway DOT, whether that distinction 
could be made in the reporting. Many came back and said it 
would be very, very difficult, verytime-consuming to do that, 
to make that kind of report. I think that is something we may 
want to pursue with the next panel, with GAO, and how we can 
simplify and make it less complicated for them.
    I can say that my experience, and at least traveling to 
half a dozen States, is that most contractors had their workers 
on layoff, called them back. And even those who had most of 
their people, the ones that were still on payroll were at 
reduced hours; 30 hours, 32 hours, 25 hours. It varies from 
contractor to contractor, keeping them on thepayroll so they 
could retain their health insurance benefits. Sand and gravel 
pits, cement producers had total layoffs. That was a complete 
recall.
    I would ask GAO who are in the audience to think about how 
they can help us simplify a reporting process that could 
provide that level of detail.
    What the gentlewoman is referring to, though, the criticism 
is coming from other portions of the stimulus. How can you 
account for teachers retained rather than teachersrehired; 
police retained, not laid off; firefighters not laid off 
because they got stimulus funds? I don't know. That is up to 
States. It is not within our jurisdiction.
    I do know this: These hours at the end of the last column 
of this long 14-inch report column has total job hours created 
or sustained. In California, that is 3.8 million job hours. 
Breaking that down to how many of those were new jobs or how 
many of those were 32 hours and went to a 40-hour week, that 
might be a lit bit of an accounting stretch. But we know that 
number is real, and that number is there for every State.
    Ms. Richardson. Reclaiming my time, sir, your generous use 
of my time. The reason why this point is important, first of 
all, I am thankful for all the jobs we have been able to 
maintain. That was critical. I agree with everything you laid 
out. But in districts like mine, where we already had 
unemployment already exceeding 12 percent before this whole 
thing happened, for us to justify to those constituents, at 
some point those unemployed need to be able to figure out how 
we can get them employed, too, and not just the people who 
already had a job, who are now--they are protected, and they 
still have their job for another year. But the ultimate goal, 
if we are going to keep spending this money, is we have also 
got to figure out how to get some of those unemployed people 
who have been unemployed, bringing them to the rolls as well.
    I look forward to working with you. It is possible if we 
get a new jobs bill, that I know you are working so hard for, 
that we can ensure, if not for this language as we go forward, 
that we can differentiate, because it is a very key point in 
terms of people who are working.
    Thank you, sir. You have been gracious.
    Mr. Oberstar. Mr. Porcari, you respond now.
    Mr. Porcari. First of all, both are important jobs, 
retained and created. We are very open in our thinking about 
lessons learned from the Recovery Act, going forward: Are there 
more sophisticated ways to capture the data? As the recipients 
get better at reporting, are there ways that we can continue to 
do this in the future?
    I would put it under the category of lessons learned. And 
we do understand that where we have the ability to do so, we 
should make every attempt to make that case, because the lesson 
that I am taking from this is that people are seeing both 
projects and employment, and to the extent that we can 
reinforce both of those very directly and see the direct 
benefits, it bodes well for transportation and infrastructure.
    Mr. Oberstar. I think the point Ms. Richardson is making is 
a very important one. I know many of our colleagues are getting 
the same questions. And, of course, the naysayers are all too 
ready to carp and complain and say, well, those were jobs that 
are already there, you are just putting them on the job for 
another 8 hours a week.
    Well, you try that. You go out and work 32 hours and get a 
reduced paycheck. Isn't it a bonus to get another 8 hours? If 
your shirt size is 16, and they sell you a size 15-1/2, you 
can't button that top collar. It is the same thing here. That 
boosting up to a full 40-hour week and then, in many cases, 
assuring that you get full benefits and your retirement and 
your health insurance, that is a big deal. Documenting it is 
something that we really should make an effort to do.
    Ms. Richardson, do you have anything else?
    Ms. Richardson. Thank you, sir. It has been a pleasure. I 
only wish all of the agencies that had thishard-earned money 
had operated it as you have in this Department.
    Mr. Oberstar. I just wish we had $500 billion of stimulus 
in our program. We would have 2- or 3 million people working.
    Ms. Richardson. You would have my vote for that.
    Mr. Oberstar. Mr. Porcari, has DOT--not you specifically--
DOT done--and I want AASHTO to be thinking about this as well--
a survey of contractors to see what their capacity is? In 
addition too, we have the regular 80-20 program, as I call it, 
the SAFETEA, which is still under way, 15 States are not able 
to provide their full 20 percent match, or not able to match, 
or a bonding to cover their match. Now we have the stimulus on 
top of that. Bids are coming in at 25 percent, on average, 
below final design engineering estimates. I know that was the 
case in California. Then-Commissioner Will Kempton was the 
first one to report that they are getting this windfall bonus. 
Other States reported the same.
    What is the capacity now of the industry to absorb 
additional recovery funds if we have a follow-on second-stage 
stimulus?
    Mr. Porcari. First, I don't know that we have done a 
specific study of this, but I can tell you from conversations 
with State DOT secretaries, other transportation colleagues, 
and hearing a lot from the industry the kinds of things that 
you pointed out, for example, that the pricing is still coming 
in, in many cases, below engineers' estimate, is a pretty solid 
indicator that there is unused capacity out there. I know that 
there are States, for example, that are in the middle of a very 
difficult decision of laying off either part of their 
engineering staff or not making their Federal aid match, 
another indication that overall there is much more capacity 
both on the public and in the industry side.
    The sense I get is that there is a lot of satisfaction and 
acknowledgment that the Recovery Act for transportation has 
really worked as designed, but keeping the momentum going is 
something we are all focused on, and knowing that from a 
nationwide perspective that this is a fraction of our total 
infrastructure needs, it is clear that there is both a need for 
projects out there and, I believe, capacity out there to get it 
done.
    Mr. Oberstar. I believe there is substantial capacity. 
Associated General Contractors did a survey of their top 400 
companies, who reported that they anticipate layoffs of as much 
as 40 percent this coming spring when stimulus winds down and 
when additional States are not able to provide their 20 percent 
match, and we actually see another meltdown in the economy. Not 
only is there a capacity now, there is going to be more 
capacity.
    I would expect, and I would like to get your take on this, 
by May we may have in the range of 1,000 highway, bridge, 
transit projects still under way. We will have gone well over 
9,000 by then.
    Mr. Porcari. Yes.
    Mr. Oberstar. If 30 States are not able to match, as 
current estimates indicate, 30 States are not able to provide 
their full 20 percent match under the SAFETEA program, then 
there is going to be a further cutback. The private sector is 
not coming back. Shopping malls, shopping centers, apartment 
complexes, business complexes, construction companies that were 
doing 90 percent of their work in the private sector are now 
doing 90 percent stimulus funds.
    We could see a confluence of these negative forces right at 
the time when we need to sustain the effect of the recovery.
    Mr. Porcari. That is very true, Mr. Chairman. I think, as I 
mentioned earlier, people are looking for the second stage of 
the rocket here. It is clear that----
    Mr. Oberstar. That is a good image. I like that.
    Mr. Porcari. You are welcome to use it.
    Mr. Oberstar. I will. I will even attribute it to you.
    Mr. Porcari. It is clear that the efforts have been 
successful so far. We need to keep the momentum and accelerate. 
The need is out there. I know you are going to hear from the 
next panel some very direct observations on that. But all the 
kind of indicators that we see make it clear that the capacity 
is out there, the need is certainly out there, and, remember, 
this is really an investment in our economic future. 
Transportation in this sense is an enabler for the quality of 
life we all want. We need to make that down payment now for the 
next generations.
    Mr. Oberstar. I completely agree with that. I am glad you 
have said it that way. We say it. The Secretary needs to 
continue saying it. It would be nice if the President said 
that, too, put that in one of his speeches. It would be very 
helpful. People pay attention.
    I cited at the outset of my remarks today the miles, thanks 
to the reporting, nearly 28,000 miles of pavement, new 
construction improvement, widening, and transportation 
enhancements; 27,755 miles and going faster as we speak. Of 
that number, how much do you estimate is state-of-good-repair 
projects, and how much are finishing off longer-term projects?
    Mr. Porcari. Mr. Chairman, I wish I knew the exact numbers 
on that. And I do think it varies.
    Mr. Oberstar. You can supplement that.
    Mr. Porcari. We will get you the best information we can. 
We know that many of the smaller, earlier projects that were 
out the door the quickest and got the jobs quickest were state-
of-good-repair projects, just by their very nature. So we will 
try to get you some numbers on that.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T4019.074
    
    [GRAPHIC] [TIFF OMITTED] T4019.075
    
    [GRAPHIC] [TIFF OMITTED] T4019.076
    
    Mr. Oberstar. For years I have heard--and I see Mr. Basso 
in the audience; he has a long career in transportation, and he 
was part of this, too--from State DOT saying, only if we have 
had the money, we have a portfolio of projects that are ready 
to go; that we can do widening, we can do pavement improvement. 
Now they have got the money to do it. I hope and I expect that 
this report indicates that these 27,000 miles are those--a good 
deal of those state-of-good-repair projects that States have 
long wanted to do. Now they have 100 percent funding to do it.
    Mr. Porcari. That is correct. We know that at least in many 
cases that is exactly what it was. It was the most critical 
resurfacing priorities, the most critical bridge repair 
priorities from long-established lists that the States were 
unable to fund without this direct infusion.
    Mr. Oberstar. One last observation. In light of the reality 
of State revenues declining--60 billion vehicle miles fewer 
traveled in this past 8, 9 months than in the previous year, 
the first time that phenomenon that has occurred since 1956 in 
the beginning of the Highway Trust Fund and the interstate 
highway program--and with the decline in revenues and State 
inability to match, wouldn't it be a good idea, wouldn't it be 
a great benefit to States to sustain the momentum if we could 
fully fund the existing program as well as the stimulus on top 
of it?
    Mr. Porcari. Mr. Chairman, I know we have some real 
challenges in that respect. I don't have an answer for you 
today on that, but I think we all do understand that 
transportation is a good investment for the future, and that 
the efforts in the Recovery Act on transportation are a good 
illustration of that.
    Mr. Oberstar. Thank you. You are a good soldier. You didn't 
take the administration down a path they aren't prepared to 
answer yet. Very good. Very well done. But I think the answer 
is yes.
    Thank you. Again, thank you for your willingness to serve, 
Mr. Porcari, in public service. You had a great stewardship at 
the State of Maryland.
    Mr. Oberstar. Our next panel is Katherine Siggerud; Gary 
Ridley from the Oklahoma Department of Transportation; Joseph 
Calabrese; Rosemarie Andolino; and Mr. Van Buren, New 
Enterprise Stone and Lime Company, representing ARTBA.
    Welcome back, Mr. Shuster, to the hearing.
    Ms. Siggerud, thank you again for being with us and for 
your vigilance on the Recovery Act.

TESTIMONY OF KATHERINE A. SIGGERUD, MANAGING DIRECTOR, PHYSICAL 
 INFRASTRUCTURE ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE; GARY 
   RIDLEY, SECRETARY, OKLAHOMA DEPARTMENT OF TRANSPORTATION, 
  REPRESENTING THE AMERICAN ASSOCIATION OF STATE HIGHWAY AND 
 TRANSPORTATION OFFICIALS; JOSEPH CALABRESE, GENERAL MANAGER, 
GREATER CLEVELAND REGIONAL TRANSIT AUTHORITY, REPRESENTING THE 
   AMERICAN PUBLIC TRANSPORTATION ASSOCIATION; ROSEMARIE S. 
   ANDOLINO, COMMISSIONER OF AVIATION, CHICAGO DEPARTMENT OF 
  AVIATION, REPRESENTING THE AMERICAN ASSOCIATION OF AIRPORT 
      EXECUTIVES; AND JAMES W. VAN BUREN, VICE PRESIDENT, 
DEVELOPMENT, AND CHIEF OPERATING OFFICER, NEW ENTERPRISE STONE 
    AND LIME CO., INC., REPRESENTING THE AMERICAN ROAD AND 
              TRANSPORTATION BUILDERS ASSOCIATION

    Ms. Siggerud. You are welcome.
    Chairman Oberstar, Mr. Shuster, thank you very much for 
inviting us here today. As you know, we are examining States' 
use of funds made available for highway infrastructure projects 
and public transportation under the Recovery Act. The act 
specifies several roles for GAO, including reporting bimonthly 
on States' and localities' use of funds. To do this, we are 
working with officials from all levels of government and the 
private sector in 16 States, the District of Columbia, and 
dozens of localities throughout the Nation. Today we issued our 
fourth report on the Recovery Act. My comments are drawn 
primarily from that report.
    I will cover two topics: first, the use of the Recovery Act 
highway funding, including the types of projects States have 
funded and efforts by DOT and the States to meet the 
requirements of the act; second, the uses of Recovery Act 
transit funding and how recipients are reporting information on 
the number of jobs created and retained.
    In terms of highway funding, we have found that more than 
three-quarters of the highway funds have been obligated. Almost 
half of the Recovery Act's highway obligations nationally have 
been for pavement improvement, includingresurfacing, 
rehabilitation, and reconstructing highways. State officials 
told us they selected these projects because they did not 
require extensive environmental clearance, were quick to design 
and bid, could employ people quickly, and could be completed 
within 3 years.
    Other common projects included pavement widening--that 
accounts for 15 percent of total obligations; and bridge 
replacement and improvements, which account for 10 percent of 
obligations. Construction of new roads and bridges accounted 
for 6 percent and 3 percent respectively.
    Although most States' use of funds mirror these national 
trends, States have adopted different strategies to meet their 
State's transportation goals. For example, almost 60 percent of 
Iowa's funds have been obligated for resurfacing, compared to 
12 percent in Florida. Iowa officials total us by knocking out 
the pavement projects now, they hope to free up Federal and 
State funding for larger, more complex projects in the future. 
In contrast, Florida is using funds for more complex projects 
now, such as constructing new roads and bridges.
    The level of reimbursements continues to lag behind the 
level of obligations. This is because it can take 2 or more 
months after funds have been obligated for a State to bid and 
award the work to a contractor and to begin the work. Then it 
make takes month before a State requests reimbursement from 
FHWA. Once they do so, FHWA is required to pay the State 
promptly. As is shown in figure 1 in my statement, 
reimbursements have increased considerably over time.
    In April, when we issued our first report, reimbursements 
stood at $10 million, or 1/10 of 1 percent of the amount 
obligated. By mid-November reimbursements stood at $4.2, more 
than 20 percent of the amount obligated.
    As you know, the Recovery Act requires that all apportioned 
highway funds must be obligated within 1 year. Federal and 
State officials we interviewed are confident that the remaining 
highway funds will be obligated by that March deadline. 
However, two factors may affect some States' ability to do so. 
First, as has been mentioned in this hearing, State and local 
governments are getting good deals in awarding contracts for 
less than the original estimated cost. Every State we contacted 
awarded at least half of its contracts for less than the 
original cost estimate. This allows the States to use the 
savings for other projects, but they must be identified 
quickly. In the weeks ahead, FHWA and the States have the 
opportunity to exercise diligence to both promptly seek the 
obligation of known savings, and to identify projects that make 
sound use of Recovery Act funding.
    Second, obligations for projects in areas that receive 
suballocated funds, while increasing, are generally lagging 
behind obligations for statewide projects and lagging 
considerably behind in a few States. The Secretary is to 
withdraw highway funds, including suballocated funds, which 
were not obligated before March 2, 2010. These funds will be 
redistributed to States that have all of their statewide funds 
obligated. However, States that do not have all their 
suballocated funds obligated will be eligible to receive 
redistributed funds.
    We also report today on the maintenance-of-effort 
requirements in the States. This important provision has proven 
to be more complicated than anticipated, and some States will 
have difficulty meeting it.
    Turning to transit, the majority of transit funds have been 
obligated. For example, of the $6.9 billion apportioned under 
the Transit Capital Assistance Program, almost $6 billion has 
been obligated as of November, with the vast majority being for 
upgrading transit facilities, improving bus fleets and 
conducting preventive maintenance. Many transit agency 
officials told us they decided to use Recovery Act funding for 
these types of projects since they are high-priority projects 
that support their agency's short andlong-term goals, can be 
started quickly, improve safety, or otherwise would not have 
been funded.
    Finally, we did find some confusion among transit agencies 
and bus manufacturers regarding the suggested methodology for 
calculating the numbers of jobs created or saved through bus 
purchases. This could call the reliability of such information 
into question. We have previously recommended that OMB work 
with the recipients to enhance understanding of the reporting 
process, and that DOT continue its outreach to State DOTs and 
transit agencies to ensure recipients of Recovery Act funds are 
adequately fulfilling their reporting requirements.
    Mr. Chairman, this concludes my testimony. I am happy to 
take any requests you may have.
    Mr. Oberstar. Thank you very much. Your entire statement 
will be included in the record.
    Mr. Oberstar. Secretary Ridley.
    Mr. Ridley. Mr. Chairman, Members of the committee, I am 
Gary Ridley, secretary of the Oklahoma Department of 
Transportation and Chair of the Construction Subcommittee of 
the American Association of State Highway and Transportation 
Officials, or ASHTO. I want to thank you for ensuring that the 
Recovery Act included substantial funding for transportation 
investments.
    Today I want to present three points. State departments of 
transportation have delivered on the promise of quickly putting 
recovery funds to work in creating jobs. Also, State DOTs have 
identified an additional 9,500 projects valued at $70 billion 
that could be quickly advanced, creating and sustaining 
thousands of jobs across rural and urban areas in all States.
    I want to share the lessons learned from the Oklahoma 
Department of Transportation secretary's successful experience 
in implementing the Recovery Act. First, States have been 
successful in quickly putting funds to use. As of this past 
Monday, according to the Federal Highway Administration, more 
than $21 billion, almost 80 percent of the ARRA highway 
dollars, have been obligated, with some 5,400 highway projects 
valued at $14 billion under construction in every part of the 
country. Ninety-five percent of these projects approved by the 
Federal Government or obligated have moved quickly to bid, and 
80 percent to contract award. Hiring, material and equipment 
orders begin once the contractors know they are the successful 
bidder.
    Funding made available by the Recovery Act is having a 
positive effect on jobs and the economy. ASHTO recently 
completed a survey of its members to assess additional 
transportation projects that States could quickly get under 
way, obligated in 120 days and put out to bid and under 
construction shortly thereafter. States identified an 
additional 9,500 highway, bridge, transit, port, rail and 
aviation projects, again worth over $70 billion, that, if 
funded, could be used to create these hundreds of thousands of 
jobs across the country.
    Finally, I would like to share a few lessons learned from 
the Oklahoma Department of Transportation's successful 
experience in implementing the Recovery Act and getting 
projects out the door and on the ground quickly. Oklahoma 
received $465 million in stimulus money for transportation 
projects. I am pleased to report that we have obligated 90 
percent of our highway funds earlier this month, and have 83 
percent under construction, and 13 percent are completed. We 
have moved much faster than the law required.
    We attribute our success to two critical components events. 
early planning. We began preparation several months in advance 
of the legislation, undertaking engineering work, coordination 
with our MPOs and county commissioners to select projects to 
advance if funds became available.
    In order to comply with the enhanced transparency, 
accountability, and oversight requirements, we implemented an 
intensive risk management strategy. Under this approach, for 
example, we only allowed ARRA funds to be used for direct 
construction, and we split-funded projects so that any cost 
overruns, change orders would be funded by other sources.
    I want to add that we have used the ARRA funds for a number 
of large, complex, multimillion-dollar projects, as well as for 
smaller, simpler, rehabilitation projects. One large project in 
Oklahoma is a $70-plus million improvement to Interstate I-244 
in downtown Tulsa. This project required closure of the 
interstate to facilitate pavement replacement and the 
rehabilitation or replacement of approximately 40 interstate 
bridges.
    In a 10-month window since the enactment of the Recovery 
Act, the Department has paid out more than $240 million to 
construction contractors, which represent more than 50 percent 
of the ARRA funds available. We have and just completed an 
annual rebalancing of our 8-year construction work program. 
Because of the ARRA funds, we were able to accelerate many 
projects, thus creating an ARRA domino effect, if you will, 
that accelerates other projects ahead of existing schedules and 
enables us to advance new critical projects into the program.
    Thank you, Mr. Chairman and Members of the committee, for 
including transportation funding in this Recovery Act, and your 
leadership and commitment to the Nation's transportation 
infrastructure. The Recovery Act has clearly demonstrated that 
transportation infrastructure investment delivers jobs and 
boosts to the economy. State DOTs have, again, proven that we 
can deliver on our commitments.
    We are encouraged that the administration has endorsed 
additional funding to continue modernizing our transportation 
network as one means of accelerating job growth. We applaud the 
efforts under way in the House and Senate to come up with an 
agreement on a job growth package that includes infrastructure 
funding.
    Mr. Chairman, one-time infusion of unanticipated funds are 
always welcome, and we have proven that we can deliver on our 
commitments; however, I would be remiss if I did not mention 
the need for a growing, consistent, long-term Federal 
investment strategy that identifies and considers all possible 
revenue sources.
    I would be pleased to answer any questions you may have.
    Mr. Oberstar. I want to thank you for that comment. You are 
not remiss. You have done the right thing. That is what we need 
to do, what the Congress needs to do. I will send your 
statement to the White House.
    Mr. Calabrese.
    Mr. Calabrese. Chairman Oberstar, Congressman Shuster, I 
want to thank you for allowing me to be here. My name is Joseph 
Calabrese. I am the general manager of the Greater Cleveland 
Regional Transit Authority. I have been asked to provide 
testimony regarding my Authority's utilization of the American 
Recovery and Reinvestment Act funds and also talk about the 
future funding issues facing public transportation.
    RTA is a multi-modal transit agency operating bus, light 
rail, heavy rail and BRT, serving about 200,000 customers on a 
typical weekday. RTA has been allocated $45.75 million in ARRA 
funding from two sources: $34.57 from the urban formula, and 
$11.2 million from rail mod. By filling the gap in eight 
previous grants, the $45.75 million has allowed us to invest 
over $65 million in stimulating the economy. We have also 
dedicated 10 percent of the urban grant formula to operating 
assistance to preserve needed jobs at RTA.
    To date we have contracted or awarded 109 contracts on 15 
projects, $48.4 million, with $23.9 million being ARRA funded. 
An additional $5.3 million of ARRA contracts are scheduled to 
be awarded next Tuesday at our board meeting. I am very pleased 
to announce also that 22.6 percent of the contract value was 
awarded to disadvantaged business enterprises.
    In the latest monthly report to the committee, it was 
documented through October 30 we have preserved or created 524 
job months of labor, over 90,000 labor hours, and over $2.4 
million in payroll. The majority of our projects by far have 
been state-of-good-repair projects on our rail systems. Others 
include construction of a transit center and the purchase of 35 
transit vehicles that produced jobs in both Kansas and Ohio.
    I would like to highlight four projects for you, but it is 
important to say that none of these projects would be in the 
ground today without the ARRA funding. I have got some pictures 
in my testimony of both renderings and construction in process.
    The first is a the 40-year-old station called the Puritas 
Red Line station, which is in major need of repair and 
infrastructure improvements. The construction bids were 
received April 2, contract awarded April 21, construction 
started on June 1; $5.3 in ARRA grants, plus $6.3 in existing 
grants to fund the project, which will be complete by the end 
of 2010.
    The East 55th Street rail station will improve a 50-year-
old station that serves all three of RTA's rail lines. 
Construction bids were received on June 10, contract awarded 
June 30, construction started on August 10; $5.8 million of 
ARRA grants were combined with $5.7 of existing grants to fund 
that project. You can see some renderings and also some 
construction under way.
    Kind of an interesting project is one of our uses of ARRA 
funds which is the rehabilitation of 40 20-year-old rail cars. 
A unique feature of this project, it is being used as a nucleus 
for RTA's apprenticeship training program. We have four skilled 
supervisors training 15 apprentices on this job, and they have 
the ability to take jobs in our rail shop when this project is 
over. Again, a really good way to move them up in our 
organization and increase skill levels.
    The last project I want to highlight is a special one to 
me. It is called the Stephanie Tubbs Jones Intermodal 
Transportation Center, named for the former Congresswoman, who 
was a strong supporter of public transit. The center will be a 
clean, safe, and first-class facility that will serve over 500 
buses and thousands of customers daily. Construction bids were 
received on July 13, contract awarded on July 28, with the 
groundbreaking taking place on September 10, which was, by no 
accident, Stephanie's 60th birthday; $4.4 million of ARRA funds 
and $4.9 million of existing grants, including earmarks 
supported by Stephanie, are used for this project, which will 
be completed in 2010.
    I want to take 1 minute to talk about the importance of 
operating funds used as part of the ARRA. My premise is, 
Congressmen, that a job is not just a job, and some jobs are 
more important than others. We were able to save 57 jobs 
through use of the ARRA funds, but that is only part of the 
story. These 57 bus operators doing their normal job take over 
5,000 people to work and back every day, so helping them 
preserve and retain jobs. Again, a tremendous return on 
investment.
    The future does not look particularly good. In 2009,RTA's 
primary funding source, the local sales tax, will be $20 
million below last year's level due to the recession. Despite 
our best efforts, we are looking at a 12 percent service cut in 
April, which will result in job loss by our agency and by our 
customers.
    We urge you to reauthorize the transportation bill at the 
highest level of investment possible, and to allow new funds or 
greater flexibility in funds to help address operational 
pressures. I know it is something that has been discussed in 
the past, but something that I think needs to be revisited 
certainly once again.
    With respect to ARRA investment across the country, you 
have heard from the Federal Transit Administration a very high 
percentage of funds have been obligated. We think that is 
great. Funds have gone to projects such as rail mod, the 
purchase of 12,000 new buses, construction of bus facilities, 
preventive maintenance, and expansion of light-rail systems. A 
recent report on public transit investment found that for every 
billion dollars of Federal investment yields 30,000 jobs. Along 
with APTA's survey, which identified more than 15 billion 
ready-to-go capital projects, this means that more than 450,000 
new jobs can be created or supported with some investment. 
Clearly, any legislation designed to create jobs must have a 
strong public transportation component.
    I thank you for your time.
    Mr. Oberstar. I agree with your latter point and grateful 
for the other information that you provided us. Thank you very 
much.
    Ms. Andolino.
    Ms. Andolino. Thank you, Mr. Chairman, Congressman Shuster. 
My name is Rosemarie Andolino, and I am the commissioner of the 
Chicago Department of Aviation. On behalf of the American 
Association of Airport Executives, I appreciate the opportunity 
to testify before your Committee to discuss stimulus funding 
for airports.
    First, allow me to thank you for this committee's work and 
support of the American Recovery and Reinvestment Act of 2009. 
I would also like to thank the Members of the Committee for 
passing the FAA Reauthorization Act of 2009 with a critically 
needed increase in the passenger facility charge cap.
    The Chicago Department of Aviation owns and operates O'Hare 
and Midway International Airports. Together they handle more 
than 82 million passengers annually, with service to more than 
230 cities worldwide. Our airports are major economic 
generators for the region, generating nearly $45 billion in 
economic activity and 540,000 jobs. Mayor Daley's plan to 
modernize O'Hare will create an additional 195,000 new jobs for 
our region and add an additional $18 billion to the Chicago 
region's economy.
    The Recovery Act included $1.1 billion for ready-to-go 
airport construction projects. Airports nationwide are using 
the additional AIP funding to improve their facilities and 
stimulate the economy through good-paying jobs. The FAA should 
be commended for issuing the grants so quickly. The agency's 
prompt actions have allowed airports to move ahead with their 
infrastructure projects and create jobs for their local 
communities.
    Chicago received $12.3 million in Recovery Act funding for 
runway improvements at O'Hare. The projects are substantially 
complete and will improve runway operations and increase 
efficiency at O'Hare and throughout the national aviation 
system. The stimulus funding allowed us to proceed with 
additional work that produced benefits beyond those provided by 
the O'Hare Modernization Program. Our contractor has recorded a 
total of 33,300 manhours on this project through October, 
enough to employ 35 full-time direct jobs over this period.
    The Recovery Act also temporarily eliminated the 
alternative minimum tax penalty on airport private activity 
bonds. This tax provision is helping airports move forward with 
critical infrastructure projects that had been delayed because 
of the collapse of the bond market. Thus far, airports have 
issued more than $5 billion in bonds that have benefited from 
AMT provisions. They save more than $600 million.
    Mr. Chairman, as Congress begins to consider a new 
legislation to help create jobs, we encourage you to include 
provisions that will help airports move forward with key 
infrastructure projects that reduce their financing costs. 
First, we encourage Congress to include substantially moreAIP 
funds in the next jobs bill. AIP funding would improve aviation 
safety and help airports prepare for future demand. The 
additional infrastructure projects would also help stimulate 
the economy by creating jobs.
    Second, we urge you to work with your colleagues on the 
House Ways and Means Committee to take the next steps and 
permanently eliminate the AMT penalty on airport private 
activity bonds. A permanent AMT fix would help save airports 
billions of dollars.
    Third, Congress can help stimulate the economy by passing a 
multiyear FAA reauthorization bill that will raise the PFC cap 
to $7.50 and index it for inflation. Raising the PFC cap would 
help airports across the country. In Chicago, it will assist us 
in funding the completion phase of the O'Hare Modernization 
Program. Thus far the first phase of the OMP has created on 
average 1,400 jobs a year. Increasing the PFC will help us 
stimulate the economy by creating thousands of good-paying jobs 
every year for the next 5 years without burdening the taxpayer.
    Finally, as we work to improve infrastructure and create 
new jobs, it is important to incorporate green technologies. At 
Chicago's airports we have demonstrated that sustainable 
initiatives are not only possible, they are essential. This 
year, working with other airports, we released our sustainable 
airports manual, which focused on sustainable guidelines for 
airport design and construction, and includes chapters to 
incorporate sustainability into airport planning, daily 
operations and maintenance, as well as concessions and tenants. 
These ongoing efforts will also promote green jobs in our 
industry.
    Now is the time to make investments in our national airport 
system. With your leadership airports nationwide are receiving 
critical funding to increase system capacity, safety and 
efficiency, and making environmental improvements, with the 
added benefit of stimulating the economy. We are grateful for 
the support and encourage the Congress to continue these 
critical efforts.
    I am happy to take any of your questions, and I would like 
to extend an invitation to visit Chicago for a tour of our 
airport system.
    Thank you.
    Mr. Oberstar. Thank you very much, Ms. Andolino.
    Mr. Oberstar. Before we get to the questions, I just wanted 
to compliment airport executives, as I have done AASHTO, the 
DOT commissioners. Your projects--your colleagues' projects 
went out faster than the highway projects because there is 
something that I am going to ask you to explain in the 
contracting authorities that airports have that they can take 
the bids, and award the bids, and hold the prices for a period 
of time, and that is how they got those projects out so fast. 
We will come to that later.
    I am going to ask Mr. Shuster to do the introduction of our 
next witness.
    Mr. Shuster. Thank you, Mr. Chairman.
    It is a pleasure to have not only a good friend and a 
neighbor, but really one of the operators of one of the premier 
companies in Pennsylvania, central Pennsylvania, New Enterprise 
Stone and Lime. It started in the little town of New 
Enterprise, a very small town--I don't think there are a couple 
hundred people that live there--but it has grown to be a 
prominent Pennsylvania company, grew into a regional company. 
Now it is a national company, and a lot of it has to do with 
our next witness, who is the chief operating officer. He has 
been a prominent voice in the State of Pennsylvania on issues 
of highway funding and transportation, and now he is on the 
national stage.
    I don't want to put too much pressure on you, because when 
I see you for the holidays, you will probably get back at me 
somehow.
    Welcome, and we are looking forward to hearing your 
testimony.
    Mr. Oberstar. He wouldn't do such a thing.
    That is a wonderful introduction.
    Mr. Gerlach, do you want to pile on?
    Mr. Gerlach. I would just echo Congressman Shuster's 
comments on the leadership of Mr. Van Buren in highway 
construction issues in Pennsylvania. He is known as not only 
within his own company's right, but also within the State 
association a very prominent highway construction leader. We 
certainly appreciate and prize his comments and his insights 
into how we can make this a better system for not only 
Pennsylvania, but for the entire Nation. I am really 
appreciative of the fact he is here.
    Mr. Oberstar. Thank you.
    Now, Mr. Van Buren, no pressure on you, but with that 
praise, you have got to do a great job for us now.
    Mr. Van Buren. Thank you, Mr. Chairman. Now that 
Congressman Shuster has destroyed my introduction here, I will 
continue on to the second paragraph.
    Thank you for the invitation to speak today. I am here 
representing the American Road and Transportation Builders 
Association to discuss implementation of the American Recovery 
and Reinvestment Act.
    As Congressman Shuster said, New Enterprise was formed in 
1924 by J.S. Detwiler and his son Paul, and is currently 
managed by third- and fourth-generation Detwilers. We are a 
vertically integrated construction material supplier, highway 
contractor, and traffic safety products and service providers. 
New Enterprise is the largest producer of aggregate in 
Pennsylvania and 16th largest in the United States, and is a 
top 50 heavy highway contractor in the U.S. The age, size, and 
diversity of our company allows me to offer a broad perspective 
on the Recovery Act impact on the transportation construction 
industry.
    Mr. Chairman, the transportation components of the Recovery 
Act are a true success story. The economicdownturn has had a 
substantial adverse impact on our company and the entire 
industry. Our sales quantities dropped significantly from 2007 
to 2008. Without the Recovery Act's transportation investments, 
all our markets would have continued their free fall this year. 
My written testimony includes data that shows stimulus funds 
have had a significant impact on New Enterprise, the 
transportation construction industry, and helped to prevent 
thousands of permanent and early season layoffs by construction 
firms and their suppliers nationwide.
    It is certainly true our industry continues to suffer from 
the recession and is experiencing disproportionate levels of 
unemployment. That reality is not an indictment on the Recovery 
Act, but rather illustrates how much worse our situation could 
have been.
    As of the end of November, $21 billion of Recovery Act 
highway funds had been obligated, and $14 billion of that 
amount was under construction. That means two-thirds of the 
available funds are generating economic activity and supporting 
employment. Almost 96 percent of Pennsylvania's Recovery Act 
highway funds have been obligated, and of that amount, more 
than 19 percent of the work has been completed.
    Contractors make employment decisions and purchase material 
and equipment when contracts are awarded. As such, the economic 
benefits occur long before the project completion.
    New Enterprise has been awarded over $50 million of 
Recovery Act contracts. Approximately 50 percent was performed 
in 2009, and the balance will be done in 2010. We have also 
supplied materials and been subcontractors for a number of 
additional Recovery Act projects. Although the sales have not 
reversed the negative sales trends we are seeing in stone, 
sand, concrete block, and ready-mix, they have certainly helped 
replace hot-mix asphalt and construction work not being done 
currently in the commercial and residential markets.
    Our firm incurred a 5 percent decline in employment from 
2007 to 2008, but this trend slowed in 2009 to 1 percent. 
Without the Recovery Act-funded work, this situation would have 
been much worse.
    While the Recovery Act has certainly been helpful in the 
short term, we must recognize this legislation was never 
intended to be a long-term solution. Absent action on a 
multiyear surface transportation program reauthorization bill 
or some other infusion of transportation infrastructure 
investment, we are looking at marked retraction within the next 
2 years. In fact, New Enterprise is projecting declines as 
early at late 2010.
    Clearly, the robust 6-year investment levels proposed by 
this Committee would be the more ideal move to stabilize and 
grow the U.S. Transportation construction market. If, however, 
it is not attainable, an alternative measure that significantly 
boosts infrastructure investment in the short term and retains 
the integrity of the Highway Trust Fund can also provide a 
critical economic boost. In fact, the success of the Recovery 
Act is proof that our industry has the capacity to take on 
additional work, complete it quickly, and help reverse 
unemployment trends. That said, the maximum economic multiplier 
effect only occurs under a 6-year measure.
    We thank the Members of this Committee for your leadership 
on the Recovery Act and your efforts to deliver a multiyear 
reauthorization bill. I appreciate the opportunity to testify, 
and would be happy to answer any questions.
    Mr. Oberstar. Thank you very much for that splendid 
testimony, and of course, your complete statement will be 
included in the record.
    And now, in light of the pending votes, I will ask Mr. 
Shuster to begin the questioning.
    Mr. Shuster. I will yield.
    Mr. Oberstar. The gentleman wishes to yield to Mr. Gerlach.
    Mr. Gerlach. Thank you both.
    I wanted to follow up on a comment that Mr. Van Buren had 
in his testimony as well as a comment that Secretary Ridley had 
in his testimony.
    And specifically, Secretary Ridley, you indicated that 
Oklahoma's successful experience utilizing ARRA funds offers 
lessons that we are able to be sharing with all States relative 
to the rapidity of moving ARRA funds through the process and 
getting them into projects.
    And I think, Mr. Van Buren, you indicated the same thing of 
how Pennsylvania's PENNDOT, Pennsylvania's Department of 
Transportation, has been able to move dollars quickly, get 
projects identified and get contracts let, get projects 
underway on the ground.
    From those experiences that you have seen in both 
Pennsylvania and Oklahoma, what long-term lessons are generated 
from that experience that in the future can help streamline the 
process, assuming there is going to be sufficient dollars 
ultimately for transportation infrastructure projects through 
future pieces of legislation? What are some of the lessons you 
learned utilizing ARRA funds that can be applied long term to, 
again, getting projects done expeditiously and more cost-
effectively over a long period of time?
    Mr. Van Buren. Well, I know what we did in Pennsylvania 
was, the contractors and PENNDOT got together we really 
compressed the schedule from project conception through project 
award to project construction. It was a matter of just working 
with the contractors association and the Department of 
Transportation to take what has typically been about 180-day 
schedule, and we were able to knock it down to 60 to 90 days. 
And it was really just a matter of saying, this is when this 
project is going to bid and had gotten bid every other week, 
and they now have been, ever since the stimulus money came in, 
bidding weekly. And if a project is going to bid on April 7th, 
that is when it bids. And if it is supposed to go to 
construction 15 days later, then the contractors knew we were 
going to be working 15 days later. And it was just that 
commitment of bringing the parties together and everybody 
agreeing up front, this is what we are going to do.
    Mr. Gerlach. Secretary.
    Mr. Ridley. Not different than what PENNDOT did. We met 
with our contracting industry partners early in November, right 
after the election, because we really felt that Congress was 
moving in this direction, and we felt it was important for us 
to get ready. But not only that, as you might expect, in 
project delivery, it is more than just the bidding of the 
project and getting it out to contract. All of the prep work 
that has to go in with the environmental process, right-of-way 
acquisition, utility relocations, that has to be done prior to 
the project.
    I think a key factor that we have learned in lessons 
learned is a couple of things. You have to have the Federal 
agencies be your partners. They have to come to the table 
willing to move quickly, make decisions quickly, and not delay 
things. And it is not just the Federal Highway Administration 
but also the resource agencies, Corps of Engineers, U.S. Fish 
and Wildlife. Those that play a part in the environmental 
process and decisions that have to be made quickly in order for 
us to move quickly.
    I think, once the administration says that this is a 
priority of the Nation to move forward quickly, then I think 
your resource agencies and your--the Federal bureaucracy, if 
you will, can move quickly as well. I think government can do 
good things, and government can move quickly. Sometimes 
government needs to do just that.
    Mr. Gerlach. I thank you both for your testimony today, and 
thank all the panelists for your testimony as part of this 
important hearing.
    I yield back to the Chairman and my colleague, Mr. Shuster.
    Mr. Oberstar. Thank you, Mr. Gerlach.
    And I appreciate the response from Secretary Ridley and Mr. 
Van Buren that I think you said it very well, Secretary Ridley, 
that the Federal Government has to be a partner, has to make 
decisions quickly, has to engage all the other agencies. And 
that is what we provide in our long-term surface or 6-year 
surface transportation authorization bill, an Office of Project 
Expediting within the Federal Highway Administration and within 
the Federal Transit Administration, one entity whose job will 
be to keep these projects moving ahead, bring the parties 
together, everyone who has a permit.
    It is not just the EPA. It is a township officer has a 
permit to give and someone else has a permit to give. And all 
sorts of entities have permits to give. Get them all in a room 
together and avoid this sequential decision-making process. 
Everyone has a crack, and they take their time at doing it, so 
that it takes 3 years to do a simple mill and overlay. I am 
exasperated with that process, and we have to end it. And we 
can when we get the bill enacted.
    And I would like your comments, not now--I mean, on the 
concept, but I am sure you have a copy of that language from 
our bill. Give us whatever thoughts you have on how to improve 
it or make it better, apart from taking certain entities out 
and shooting them, as someone suggested to us. That is not very 
helpful.
    Mr. Shuster, I yield my time to you.
    Mr. Shuster. Mr. Chairman, I appreciate your passion, and 
I, too, hope we can figure out a way to move these projects a 
lot quicker. I think we have. We must. And I want to come back 
to that question for the secretary.
    I want to welcome the secretary from Oklahoma. I know Mary 
Fallin was here, and I am also good friends with John Sullivan, 
who have the highest regard, both, for you and your abilities 
as the secretary of transportation there in Oklahoma. Thank 
you, all of you, for being here today.
    I wondered, Mr. Van Buren--I don't think I've ever called 
you Mr. Van Buren before, and it will end after this is over 
today. You talked a little bit about what your company is 
doing, investments, and you and I have had a number of 
conversation about that. Can you go into a little more detail 
of what you would typically invest if you had a long-term bill, 
a long-term transportation program in front of you versus what 
you have been doing? Because I think the thing that you can 
bring to light is the ripple effect through the economy. So if 
you can talk a little bit about that.
    Mr. Van Buren. Sure. What ISTEA passed, TEA-21 passed and 
SAFTEA-LU passed, when those three bills passed, the first 2 or 
3 years in those bills, we expanded plant capacities in 
aggregate plants, hot-mix asphalt plants, ready-mix plants, 
precast plants. We invest knowing that there are going to be 
predictable funds going into the system.
    And what we do now, since with the expiration of the bill 
and not knowing whether there is going to be a 2-year bill or a 
6-year bill, we buy big cases of duct tape and lots of spools 
of bailing wire, and that is how we fix our equipment. We don't 
make big investment moves. We don't really know what is going 
to happen. So we can't bring on college students, which 
typically we would hire two or three college students every 
year and start training them to come into our industry. It is 
very difficult to get kids out of the trade schools and start 
training them to be operators, and laborers and carpenters, 
because we have plenty of people on staff who are not fully 
employed or being fully utilized.
    So our training programs kind of sit off to the side. Our 
capital investments, which are really, you know, they are large 
trickle-down type things. When we buy a truck, it can be three 
quarters of a million dollars to a million and a half dollars. 
That is a big investment. I need know it will be busy for 
several years before we can actually do the actual acquisition.
    In talking to colleagues of mine that work at Caterpillar 
and some of the other big construction companies, I could drive 
by their yard, and right now, I could rent any of those pieces 
because they are all just siting there, which means that the 
people back in Peoria are not building more trucks, because 
there are plenty of trucks just sitting out there in rental 
fleets, which if I were to get a job off of stimulus, that is 
where I am going to go first. If I don't have it in my own 
fleet, I am going to rent it from somebody, which means we are 
not going to build it, which means the foundries are not 
working. The trickle-down in our industry, the basic industries 
of aggregate supply and then construction is a very, very long 
chain.
    Mr. Shuster. Not that I want you to name private companies, 
so you may not want to talk dollars, but percentage-wise, what 
kind of cut or what kind of decrease in capital spending are 
you experiencing?
    Mr. Van Buren. Well, I put it in my testimony just because 
I think it is important, and even though we are privately held, 
we typically don't go into big--we don't lay our finances out. 
But I do think it is important that people understand; we would 
typically spend upwards of $45 million on capital spending. And 
we are in the $20 million range right now, and that just fixes 
stuff. It buys a few over-the-road trucks because maybe 
something just won't run anymore, but the years of placing 
orders for 10 and 15 over-the-road trucks, and 17 mixers and 3 
large dozers, and 5 trucks, we just can't do that without 
knowing where the funding stream is going to come from.
    Mr. Shuster. And just one more point, you expressed the 
training part of it. If you are not training people today, you 
have cutback on that, all of a sudden the economy turns--not 
all of a sudden, but eventually the economy turns around and we 
get a highway bill, how difficult is that for you to then bring 
it up to speed and have enough workers to do the jobs you need 
to train them for?
    Mr. Van Buren. It just makes everything--it just makes the 
whole system more inefficient; it makes it inefficient. We can 
have a very efficient system of bringing people on, having 
older generation employees train younger generation employees, 
but as I believe someone said earlier, we have the older 
generation that really is the heart and soul of a lot of this 
industry, they are retiring, which means I am going to miss, 
sort of, that generational training piece. We need really 100 
percent continuity, bill to bill to bill, as we had in the last 
three succession of bills. And so we need something soon to 
show our industry that there is a national level commitment to 
this, and then we will train, and we will start buying stuff.
    Mr. Shuster. Thank you.
    Mr. Oberstar. I don't know if we are going to break now. I 
would come back afterwards.
    Mr. Oberstar. If the gentleman would conclude at this 
point. We will return.
    I will yield to Mr. Lipinski.
    Mr. Lipinski. Thank you, Mr. Chairman.
    I want to make this quick, so I want to compliment Ms. 
Andolino on OMP and especially the thing about green jobs, 
going green. I have right here the wristband, which not just 
relating to that, but I know there is also 
airportsgoinggreen.org, talking about all of the great work 
being done in creating green jobs; not just jobs, but also, 
more importantly, green jobs at O'Hare with the O'Hare 
modernization.
    I wanted to ask Ms. Andolino and then open it up to anyone 
else who might have things to add more generally, first of all, 
specifically on job creation at O'Hare with the modernization 
program but also the expansion of capacity, as everyone knows 
the issue of opening up the capacity at O'Hare is critical for 
the, not just for O'Hare and Chicago area, but also for the 
entire Nation in helping to alleviate issues of delays in the 
system. And so could you give us more information--I know you 
went through it in some of your testimony--but job creation and 
additions to capacity that is going on at OMP?
    Ms. Andolino. Thank you, Congressman.
    Yes, actually, I would be happy to. In terms of capacity, 
and I will address that first, you know we opened our first new 
runway at O'Hare in over 30 years on November 20th of 2008. 
That runway is now yielding us over 22 percent increase in our 
arrival capacity. So during these challenging times of weather 
conditions that we experience in the Midwest, we are still able 
to land three planes simultaneously and during certain weather 
conditions. So that is a benefit to not only O'Hare but to the 
national aviation system, because we do impact that entire 
system.
    So we seeing benefits immediately with the addition of that 
new runway. We have three new additional runway projects to go; 
one that is currently under construction. So we have been able 
to keep people working since 2005, when we put our first shovel 
in the ground on the OMP. We have been employing anywhere 
between 900 to over 2,000 direct construction jobs annually, 
during our construction seasons. And, again, that is strictly 
construction.
    In terms of designers, anywhere from 250 designers to over 
500 designers have been employed. And that is not all of the 
other indirect jobs, all of the management, quality control, 
construction management, program management, financing, the 
back office of these designers and contractors, and the 
employees that they pay. So that is why when we talk about the 
O'Hare modernization program and its ability to then generate 
up to 195,000 new jobs for our region, it includes all of those 
pertaining to construction and design and all of the efforts 
that I have just discussed. But also, in terms of our 
entertainment business, tourism, restaurants, that construction 
worker that is working on our program that comes to work every 
day, he doesn't bring his lunch, or when he does, he is still 
purchasing it as a store or going to a restaurant in and around 
our area. And it is that compound effect that keeps people 
working at the local Starbucks, at the Dunkin Donuts, et 
cetera. So that is where the 195,000 new jobs comes in over the 
life of our program.
    And we have really been able to keep a stimulus program 
going in Chicago because our program will go until 2014. And 
that is why, with the additional monies of the passenger 
facility charge and if we are able to increase it to $7.50 plus 
indexing, all airports like O'Hare will be able to continue 
their programs, their infrastructure programs, without 
burdening the taxpayer. And so we can continue to keep people 
employed. The construction industry can knowingly invest in new 
equipment. We can keep the John Deeres and the Caterpillars 
healthy in our local region and elsewhere so, that we can keep 
those jobs and keep some type of continuity and stability to 
the job industry.
    So we are trying to do our part, keep people working. Any 
additional funds we can get in infrastructure, in the America 
Recovery and Reinvestment act, we will put those to good use. 
All of my colleagues at airports will do the same, as well as, 
as I said, the increase in the PFCs would help us all for the 
long term keep construction moving to enhance our capacity at 
our airports that are in desperate need to not only rebuild 
existing but add new capacity to their airports. Thank you.
    Mr. Lipinski. I see my time has expired, and we have the 
votes, so I will yield back to the Chairman.
    Mr. Oberstar. We have 2 minutes remaining on the vote. We 
will recess at this point and reconvene as soon as possible 
after the three recorded votes.
    The Committee is in recess.
    [Recess.]
    [1:54 p.m.]
    Mr. Oberstar. The Committee will resume its sitting. And 
while we await the arrival of other Members, I would ask Ms. 
Siggerud to do a simple ministerial task, and that is to define 
the term "obligate." It is budget speak. That is an obscure 
word for most people who do not understand. What does that 
mean?
    Ms. Siggerud. Well, I am going to answer that for the 
Federal Aid Highway program, as you know, "obligate" has 
different meanings----
    Mr. Oberstar. That is the context in which I want it.
    Ms. Siggerud. Yes. What that means is that the Federal 
Highway Administration has reviewed and approved a project 
proposed by the State and determined that it is eligible and 
notified the State that it can in fact spend funds, spend 
Federal funds for the purpose of that project.
    Mr. Oberstar. And you said it very well, probably better 
than I, more precisely than I would have done.
    That is very different from putting out to bid----
    Ms. Siggerud. Yes.
    Mr. Oberstar. Awarding contracts, having under 
construction.
    Ms. Siggerud. Yes. In fact, what we talked about----
    Mr. Oberstar. It is a precursor term in effect or a 
precursor action, if you will.
    Ms. Siggerud. Right. It essentially tells the State that 
this project is an eligible project under the Federal Aid 
Highway program, and the State can then go to the following 
steps that you have just outlined, including advertising for 
bids, choosing bids and awarding a contract.
    Mr. Oberstar. Now, under the act, States were given 120 
days in which to obligate up to or no less than 50.
    Ms. Siggerud. Right.
    Mr. Oberstar. No less than 50 percent of their funds. The 
House bill required, had a much shorter time frame, a much 
shorter leash on States. And many objected or raised questions, 
budget speak people over at OMB raised questions, and in 
conference, the House relented and gave into those complaints. 
Have you seen any difficulty in the States being able to meet 
the 120-day time frame or even a 90-day time frame? Didn't most 
States get their money obligated well in advance of that 
timeframe?
    Ms. Siggerud. Both the transit and highway programs, both 
of those obligation deadlines were met. There was, of course, 
the 120-day that you mentioned for highways. And for the 
transit, there was a deadline in September, as you recall.
    Mr. Oberstar. Yes.
    Ms. Siggerud. There is now another deadline coming up March 
2nd of 2010. It looks like States are on track to plan to meet 
that obligation deadline with a couple of the caveats that I 
mentioned in my short statement, which is that we are seeing, 
because of these low bid amounts and the contract awards that 
are lower than the estimates, we are seeing that the States are 
needing to de-obligate and then re-obligate for new projects. 
So that is a constantly ongoing process in many of the States 
that we are reviewing.
    As well, there is the issue, in a few States, of those 
funds that were sub-allocated to metropolitan areas are not 
being obligated at the same rate as the State DOTs are 
obligating their highway funds.
    Mr. Oberstar. Correct. And the first example you just gave 
is results from bids coming in lower than final design 
engineering estimates.
    Ms. Siggerud. That is right.
    Mr. Oberstar. And the second is because there are some 
difficulties that we haven't quite identified yet with MPOs 
that are not able to obligate and get under contract as quickly 
as State DOTs, correct?
    Ms. Siggerud. That is right. In general, it does vary quite 
a bit by State, the extent to which localities handle the 
Federal Aid Highway program on a regular basis. Some localities 
have more experience with handling Federal Aid Highway program 
and complying with its requirements than others. Those that 
have less experience are generally not obligating as high a 
rate as others.
    Mr. Oberstar. Well, in short, then, the MPO issue is an 
uneven one. Not all are in that category, or some are doing 
better than others?
    Ms. Siggerud. Absolutely. We are looking at 17 States, 
Chairman Oberstar. Of the 17, we have 3 where the sub-allocated 
obligations are at a much lower rate than the State level. And 
that is Arizona, Massachusetts and New Jersey. The difference 
is not as pronounced for the other States we are reviewing.
    Mr. Oberstar. Those 17 States represent 68 percent of the 
population.
    Ms. Siggerud. That is right, 68 percent of the dollars in 
the Recovery Act.
    Mr. Oberstar. I will come back to pursue this a little bit. 
But it is important for us as we proceed to the authorization 
bill, the Surface Transportation Act, there are some issues 
that we need to resolve or some problems in operation at the 
MPO level that we want to use this experience in crafting our 
legislative language.
    Ms. Siggerud. Chairman Oberstar, we did actually do a 
survey of all Metropolitan Planning Organizations for your 
counterpart in the Senate, the Environment and Public Works 
Committee, and have some observations on their capacity and 
some of the issues associated with this. We would be happy to 
sure that with you.
    Mr. Oberstar. That would be very valuable. Thank you.
    Now I will withhold and recognize the gentlewoman from 
Oklahoma, Ms. Fallin.
    Ms. Fallin. Thank you, Mr. Chairman.
    And let me just say, Mr. Chairman, how smart I think you 
are because you have invited the secretary of transportation 
from Oklahoma to give testimony today. So I have always admired 
you, but now, I admire you even more.
    Mr. Oberstar. Oh, boy.
    Ms. Fallin. I have to brag upon my secretary of 
transportation that is here today. He has done a great job for 
the State of Oklahoma. Now all the other panelists are 
wonderful, too, not to take anything away from you, but I am 
proud of my Oklahoma people.
    I had the opportunity to read Secretary Ridley's 
transportation report, and I am very pleased that Oklahoma has 
been so aggressive and so on top of getting the stimulus money 
out the door and creating jobs and having their shovel-ready 
projects available. And they have been listed as one of the top 
five States in the Nation as being prepared and able to get the 
money out.
    I wanted to ask Secretary Ridley a question, though. I was 
listening to the deputy secretary talk about the difference 
between obligations and outlays and the amount of stimulus 
money that is being spent in the States. I was looking at 
Oklahoma's figures in particular, and it seems to be about 50 
percent of the outlays are now out into the economy versus the 
obligations, which Oklahoma has a high percentage. Out of the 
$465 million, we have obligated $420 million, as you testified, 
almost 90 percent of our money.
    But are we getting the money back to the contractors, those 
who have been awarded the contracts for the road projects, in a 
timely fashion from the Federal Government, the obligated 
versus the outlay money?
    Mr. Ridley. Congresswoman, and I think it can be attributed 
to several factors: One, that we were able to move very quickly 
when the money became available on the 2nd of March. As the 
Chairman pointed out, the States had the responsibility that a 
certain percentage of those monies be obligated within 120 days 
after the money became available.
    In our case, we had to have approximately $163 million 
obligated in 120 days, but we were able to open bids on over 
$200 million worth of projects in 19 days. So moving quickly 
early on enables you to have a good, strong construction 
season, and that is what we targeted. We thought it imperative 
to, even though Congress had allowed us more time, we felt if 
you really want to create jobs, you must do it during the 
construction season and take advantage, full advantage, of that 
construction season.
    Consequently, by now, a lot of the projects have been 
completed. More than 50 percent of the dollars that were 
allotted to Oklahoma have been paid to contractors. They have 
met specifications. We have built--they built the jobs as we 
have prescribed and as they bid, all the testing has been 
completed. And we are in the process of billing the Federal 
Highway Administration, because it is a reimbursement account, 
but we are at about $240 million, which is a little over 50 
percent of the money. And I think it is attributed because we 
moved very, very early in the process. We took the Chairman and 
this Committee and Congress and the President very serious on 
the issue.
    Ms. Fallin. The Federal--deputy secretary, excuse me, had 
talked about how they want to make sure there is good check-
and-balance system on sending the money out to those who won 
the bids once the work is completed. Are they getting their 
money in a timely fashion from us?
    Mr. Ridley. Yes, they are. And we feel very confident with 
that. Part of the checks and balances that we did with the 
recovery funds is we split-funded all projects. That ensured 
that we tied a dollar amount, a fixed dollar amount, of 
stimulus funds to each project. And if there were any overruns, 
cost escalations, supplemental agreements, anything that you 
would have in the course of prosecuting the project, which is 
very common, that they would not be paid with stimulus funds; 
they would be paid with other funds. That ensures that we 
targeted the stimulus funds for direct accountability. From 
conception of the project until it is completed, the dollar 
amount of stimulus funds will not change.
    Ms. Fallin. Thank you.
    If I could ask--is it Siggerud?
    Ms. Siggerud. Yes.
    Ms. Fallin. I hope I pronounced it kind of close. I know 
you have been looking at the jobs created so far. Do we feel 
pretty sure of our tracking method of the stimulus jobs that 
have been created in transportation, the numbers that you 
looked at, with our methodology?
    Ms. Siggerud. We issued a report in GAO a few weeks ago 
looking at the 1512 process that the deputy secretary 
described, by which all grant and loan recipients must report. 
In our work, we focused specifically on education and highway 
funds. We found that, because of the existing system that is in 
place, where contractors and State DOTs do report on payroll 
issues, that there were fewer concerns with regard to the 
quality of the information provided on the highway side than 
with some of the other kinds of jobs that are being reported.
    We do have an ongoing obligation to report quarterly on 
this job creation reporting system. We are going to be drilling 
down into some of the issues that we found, for example, 
dollars with no jobs or jobs with no dollars, try to understand 
what is causing those kinds of data errors. We have also made a 
number of recommendations to OMB about how to make it easier 
for the recipients to report accurately.
    Ms. Fallin. Thank you, Mr. Chairman, I appreciate the extra 
time.
    Mr. Oberstar. I appreciate your comments at the outset.
    You may have overstated some things, but Mr. Ridley was 
selected because it was felt that Oklahoma has a great story to 
tell. And we asked AASHTO to recommend also a witness, but I 
thought that Oklahoma being right up at the top would have some 
good words of wisdom for us, and thank you.
    You may be working for Ms. Fallin if things go her way.
    Mr. Oberstar. Mr. Shuster, do you--and I also want to 
observe that Pennsylvania is number seven, just by a hair, in 
our ratings, but that is also because you had commissioner Al 
Biehler, who was the president of AASHTO for the past year and 
who really made things hum.
    Mr. Shuster. He does a great job for Pennsylvania.
    Mr. Oberstar. Yes.
    Mr. Shuster. I wanted to probably ask four of you, 
Secretary, and the different transit authority, aviation, and 
of course the private sector, what kind of--we talked a little 
bit about it. The secretary touched on the speed to get 
projects going, get them turning the ground, getting projects 
out there and getting people working. What are the types of 
things that you see we can do? And you mentioned about when the 
State and the Federal and the local government gets serious 
about it and focused on it. Can you talk a little bit about 
that, what we need to do and how we can solve the problem of 
slow movement on these projects?
    Mr. Ridley. Congressman, I think if everyone realizes that 
this is a priority of the Federal Government and certainly a 
priority of State government, then things can happen very 
quickly.
    The Chairman had a tragic event that took place in 
Minnesota, and everyone stayed focused on that endeavor to put 
that bridge back, and it moved unbelievably quick.
    We had a similar experience, and we were contacted by the 
Minnesota DOT shortly after the bridge went down. A bridge on 
Interstate 40 back a few years ago, a 500-foot long span of 
interstate bridge that had been knocked down, we were able to 
put that bridge, from the time it went down until the time we 
cut the ribbon on it to open it up was 64 days, 2 hours and 40 
minutes. You can do that if you stay focused and if you stay 
focused on the task at hand.
    Let me give you one simple example, I think, that can work, 
that did work for us anyhow, in the recovery plan. One of the 
things that the gentlewoman to my right had mentioned is the 
sequence of events that take place, that you have to have a 
project authorized, obligate the funds, authorized by the 
Federal Highways, before you advertise, collect bids, award the 
project, and then construction starts. But some of that can be 
done at the same time. You can advertise; I think the Federal 
Highways has the authority to do so, and they allowed us to do 
under the stimulus package. You can advertise prior to the 
project being authorized, as long as you don't take bids or 
award the project until it is authorized. That enables you to 
move up sometimes as much as 30 days. That 30 days may not seem 
like much, but if you think about that is 30 days of 
construction time in the heat of the summer and the amount of 
work that you can get done with an extra 30 days of summertime 
construction season as opposed to waiting 30 days and now you 
are into the winter months, and now a day in the summer is 
worth 3 or 4 days in the winter for construction.
    So just that simple event can save you an unbelievable 
amount of time if you are looking at it, not on one project, 
but on your whole realm of projects that you do. So just, 
again, I think there are things that if agencies can come 
together and really get serious about it, I think you can find 
that there are some ways to still do all the things that need 
to be done but do them quicker.
    Mr. Shuster. Ms. Andolino, she is nodding her head 
vigorously.
    Why don't you comment on that?
    Ms. Andolino. Well, I think there are a lot of the same 
synergies in both aviation as well as in the highway. One of 
the things we were able to do is, the FAA got their message out 
quickly. And so the collaboration and the communication was 
extremely important. They handled it as if the stimulus money 
or the Federal Recovery Act money, the same way in which they 
handled AIP funding. So we knew going into this that this was 
going to have to be DBE Federally funded type of a job. We 
added that component to an existing bid that we were putting 
out on the street; kept it separate with the other types of 
funding that we also were using towards this job, whether it 
was general revenue-backed bonds, passenger facility charge 
funds, or AIP funds, and now you had another component, which 
was the American Recovery and Reinvestment Act, and for us, it 
was the 12.2.
    So using that methodology, we were able to keep things 
moving, we were able to advertise, bid, and award. We kept that 
award separately until we then received actual approval from 
the FAA to say we could move forward and we were awarded the 
funds, and it was fully funded. So that job was completely 
funded, and we were able to move forward. So the communication 
was key and the continuity of how they do their other job, so 
nothing really changed. There was a change in the sense of some 
of the reporting, additional reporting that they required, but 
the bidding process itself was the same, which was good for the 
end user, us.
    And that continuity was, again, extremely important. If it 
continued with additional monies, we would appreciate that, but 
what could also help, as I said in the statement, was getting 
additional funding, like the increase in the PFC. So I think 
what is really important is that long-term benefit to the 
working person; being able, for the contractors to be able to 
hit the ground running and purchase their materials. Because 
our contracts, in many cases, some were $150 million bids, and 
some were $2 million or $1 million. So we have a lot of work 
going on under the O'Hare modernization program. And more work 
as part of or CIP, but for the contractors, they need to be 
ready to go. They need the stability. So the interest in the 
PFC provides that stability because the airports can put forth 
their plans, their long-term plans, and contractors can respond 
more holistically.
    And I think one more thing to note is that, when we first 
broke ground on the O'Hare modernization program in 2005, it 
was hard to get one or two bidders. We usually got, we got one, 
and then we were always praying for two because it was a much 
more competitive price. In 2008, when we bid out our 210 center 
projects we had an upwards of 5 to 6 bidders on these jobs. And 
on smaller jobs, ones that were under $100 million, we had in 
some cases close to 10 bidders in the current environment.
    So that just shows, to the Chairman's statement before, 
there is a ton of capacity out there. These contractors need 
the work, and as an end user, when you see that many bidders 
and the change so rapidly from 2005 to 2008, you know that they 
can handle additional work. And all we need to do is provide 
them the funds.
    Mr. Shuster. Mr. Calabrese.
    Mr. Calabrese. Thank you.
    Really going to add not much new to the situation. I think 
the situation for public transit for our agency was the same, 
function of communications, prioritization with our partners, 
primarily the FTA and the local MPO. On the bidding situation, 
exactly the same. One, two, three bids were probably more the 
norm, and as time went on, certainly last year, more and more 
bidders and better competition. The only delays we had were 
because bids were coming in so low, and we were moving more 
projects up to the first tier, we had to do amendment changes 
to allow that to happen. That did take some time, a little 
learning curve in the process. So far the process has been very 
smooth and working better as we move on.
    Mr. Shuster. Mr. Van Buren.
    Mr. Van Buren. I will just speak to the capacity issue 
there. I did a job last Thursday with 17 bidders on it. It was 
a $3.2 million bridge job. We are doing that every week.
    Mr. Shuster. Where are they coming from?
    Mr. Van Buren. There are coming from, as the Chairman 
pointed out I think earlier, they are coming from other market 
segments. If you are not going to be able to build a sports 
stadium or a build a parking garage or build an office 
building, you have the structural people to be able to build 
public bridges, and this was a bridge project.
    But we are seeing it on the blacktop projects as well. If 
you are not going to build a shopping center or a residential 
subdivision, then you have the paving crews available. So jobs 
that we would normally see two or three bidders on, we are 
seeing six and eight, on the paving side of things. On the 
construction side of things, there are probably two or three 
extra bidders. And on the bridge side of things, pretty 
consistently since the beginning of this year, we have been 
seeing numbers in the teens, which, you know, speaking on 
behalf of the industry, I think that is a wonderful thing. I 
think it keeps the system going.
    But the unfortunate thing is, when you have 17 bidders and 
only 1 job, only 1 person walks away with work. And you have 16 
other bidders that clearly wanted the work when you look at the 
pricing of the job. You can have times where there are 10 
bidders, and the last 8 bidders weren't nearly as interested in 
the job as the first 2 bidders were. But in this scenario, you 
are seeing at least half or more of the bidders very, very 
interested in trying to keep their employees busy, and that is 
what is happening out there right now.
    Mr. Shuster. Thank you very much.
    Mr. Oberstar. That is very, very instructive testimony, and 
very important questions, and I thank you for raising those 
issues.
    I want to come back, Ms. Andolino, is there something--I 
cited this earlier, that there is something different in the 
way in which airport authorities advertise for bids. They have 
broader authority than State DOTs have on the highway program. 
Secretary Ridley a moment ago said, we can advertise. We can 
receive bids, but not award bids, and that saves us 30 days 
time at least.
    Several of the airport authorities in my district said they 
can even award the bid, but you just can't start working on it. 
They can hold that bid; they can get the contractor to hold 
that price for up to a year. Is that a common practice, or is 
that just unique to Minnesota's experience?
    Ms. Andolino. What it is unique to is the authority 
component. Chicago O'Hare is a city entity. It is not an 
authority, so we go by the city's municipal code. So we have 
to, as well; it is a design, bid, build, and you have to have 
full funding when you go to advertise. So you have to have all 
the money in the bank in order to advertise even for, so they 
can guarantee the work will be paid. So our process is 
different than authorities.
    But on bid holding, in a robust marketplace, and I am sure 
Mr. Van Buren can probably attest to this even further, a 
contractor would be a little bit reluctant to hold the bid for 
more than 6 months in many cases, especially during the time 
frame of the high and robust building season, when steel prices 
fluctuate, wood, as well as fuel. They wouldn't hold a bid for 
too long, depending on what the raw materials were.
    In this marketplace, what we are seeing today is, and we 
actually had to ask a contractor at one point, due to some 
litigation we faced in our acquisition area, to hold a bid for 
a longer period of time, greater than 6 months, and they were 
more than willing to, due to the fact that if he lost it, he 
lost work. And therefore somebody else then could obtain that 
work, and I don't think he was willing to put his people out on 
the streets. So he was willing to hold it for a greater period 
of time than what you normally would see. So this marketplace, 
I think, is what will determine that.
    And we saw, again, in 2008, the numbers, our engineers' 
estimate on the OMP, those bids came in well under our 
engineers' estimates, because that is when the market started 
really changing. And again, you had much more competition 
because people that maybe normally didn't bid on a lot of 
government jobs, perhaps because they did more private-sector 
work or they were doing a lot of the vertical versus horizontal 
work, started repositioning their business planning, getting 
into the market where there was work. And you saw new entrants. 
When we got 6 bidders on some of our over $100 million 
projects, that was very, very rare for us. And some of them 
were names we had not seen in our marketplace before in our 
types of bids.
    Mr. Oberstar. That is all very valuable and very important 
information. As I said earlier, I am going to, as soon as this 
transcript is printed up, which I hope will be in the next day 
or so, I am going to send it--we will have it hand carried over 
to the White House so they can see and understand what is 
happening in the real world. There are some people who are not 
living in the real world, and they have got to get them out of 
their limousines and make them walk.
    Anyway, the additional factor is that you are creating 
capacity at O'Hare. By improving runways and taxiways at 
smaller airports, they are also creating additional capacity, 
even in this downturn in the economy, that will be available 
when things start turning around. You can't just go back and 
rebuild these projects overnight. So you all are going to be 
ready.
    Mr. Oberstar. Secretary Ridley, it was very instructive to 
hear you say the State DOTs could advertise, receive bids, hold 
the award, save time, from my notes of your comments. Did your 
DOT staff continue their work on the 80-20 program? Was their 
work on your regular program in any way impeded, slowed down, 
staff deterred from their work by this additional layer of 
projects?
    Mr. Ridley. No, sir, we did not. We were able to let all 
the projects scheduled for Federal fiscal year 2009; they were 
all let on time. The key was that we did not hire additional 
staff at the Department. What we did was take advantage of the 
private sector. We hired several firms to provide us plans to 
get ready for the Recovery Act. We did that in October or 
November to get ready for the piece of legislation that we 
really knew was going to happen or that we really thought was. 
But it didn't hurt us to go ahead and design and have them 
ready to go, because they were all projects that were in our 8-
year construction program. So if nothing happened here in 
Congress, we would have had projects on the shelf, ready to go 
for the future. So it wasn't an expense that we would have 
lost.
    The other advantage, Mr. Chairman, if I might, that we 
don't talk about a lot and I don't hear much about is that all 
States, and I would imagine it would be similar to us, that 
they had projects in the queue in their 5-year plan or 8-year 
plan--we just happen to have an 8-year plan--that when we moved 
all of the projects that we were able to fund with stimulus 
funds that were out there 3, 4, 5 years in the future, move 
them all forward, that enabled us to take other projects that 
were in our 8-year plan and move them forward as well, even 
though they weren't funded with stimulus funds, but it created 
holes in our plan that allowed us to move those forward; at the 
same time, add additional critical projects to our 8-year plan.
    It was kind of like a domino effect. It wasn't just the 
projects that we did with the stimulus funds that were 
affected, but it was all the other projects in our 8-year 
construction plans were affected as well, and by adding 
additional work.
    We rebalance our program every year, and we were able to do 
this last summer. It really was a benefit to the State.
    Mr. Oberstar. Thank you. I think that is an excellent 
explanation and instructive for where we go from here, but I 
also liked your observation that you really believed that we 
were going to do something.
    We moved a bill in this Committee early in 2008, moved it 
through the House floor at $60 billion, half of which was our 
committee's work. Regrettably, the previous management at the 
White House said they would veto the bill if it ever got to the 
President. And then we had an election and reaffirmed the work 
that we were doing.
    So all of you DOTs, your colleagues all around the country, 
said, This is for real. We will gear up. We had meetings in 
December out here. Our Committee and I participated and I met 
with Mr. Beeler, who was head of AASHTO at the time, and he 
brought DOT secretaries from around the country, laid out what 
we expected of you. And, to your credit, you moved ahead. We 
did the same with Associated General Contractors, did the same 
with the airport authorities.
    So coming back to how you get these projects out fast, that 
is one way to do it; have a hundred percent Federal funding, 
have an expedited program timeframe within which to do it. I 
think the "use it or lose it" proposition also scared some 
people. We don't want to be held up to ridicule.
    Our Governor a few years ago, Jesse Ventura, gave $175 
million back to the Highway Trust Fund because he failed to do 
some things. We looked like the Good Will Industry of 
transportation. It was absolutely absurd. And I know that 
others didn't want to repeat that experience.
    And then the third lesson, you mentioned the I-35W bridge. 
Tom Sorel, our commissioner, and for whom I have enormous 
regard, did something very unique. The contractor, Flatiron 
Construction, rented a building near the job site, about two 
blocks from the job site, and they took a whole floor and on 
one end of the floor was MNDOT, in the middle was the Federal 
Highway Administration district engineer or division engineer 
from Minnesota, in the other end was Flatiron. When they had a 
problem, they simply walked the plans from one end of that 
corridor to the other and sat down and said, How do we fix 
this, how do we get this done. They didn't send memos, they 
didn't send couriers. Their top engineers walked from one end 
of the corridor to the other, talked with each other, or met 
halfway, and they resolved it right there.
    There is a lesson for us for the future of transportation. 
It is not good enough just to site this project, this bridge 
rebuilt, or yours in Oklahoma, which Ms. Fallin told me about, 
including right after our Minneapolis bridge collapsed. We have 
been through that. We can help you with that. She had some good 
ideas. But some way, somehow we need to incorporate that 
experience into our future Surface Transportation Assistance 
Act.
    Mr. Ridley. Mr. Chairman, that is correct. The lessons 
learned in a stressful situation, in an emergency, if you will, 
should be lessons learned that you use on a routine basis. The 
work that your State did, hopefully the work that our State 
did, the Queen Isabella Causeway in Texas, the disasters that 
they have had in California, and the way State DOTs can react 
to emergencies is the same type of focus that needs to be on 
everyday problems.
    Mr. Oberstar. That is excellent. Help us with that. What 
are your ideas? You may want to talk to Ms. Siggerud and share 
your experience. We need all the help we can do because we want 
to do this thing right. You also said you did a few large, 
complex projects, if I quoted you rightly. Did you have any 
difficulty getting those large, complex projects under 
contract?
    Mr. Ridley. No, sir. Two of the large projects, one was for 
about close to $60 million, the other one was a shade over $70 
million. We were able to let those to contract. You all 
provided us the funds that were available on the 2nd day of 
March. And those projects were let out to build, I believe both 
of them, within 45 days after the money was available.
    The key in each one of those was that we did not have to 
acquire any right-of-way, move any utilities. The environmental 
process we did very quickly. Because of that, consequently we 
could rebuild, and that is what we are doing, rebuild 
interstate, on its existing footprint and rehabbing or 
replacing, on one project, 40 interstate bridges, a major 
project in an urban area in the City of Tulsa that is ongoing, 
and we fully expect to have that project completely completed 
by this time next year. Again, it is about a $75 million 
project.
    Mr. Oberstar. That is good to hear, too. You said moving 
projects forward in your 8-year plan creates holes into which 
you can move other projects for longer term construction and 
bidding process. What percentage, just roughly--I won't hold 
you to it, because off the top of your, obviously--of your 
state-of-good-repair projects do you think you will have been 
able to complete through this period of the stimulus funding?
    Mr. Ridley. On the State system, Mr. Chairman, we estimate 
about 80 percent of our projects are major reconstruction, 
rehabilitation, or replacement. Twenty percent of the money 
spent was on either pavement preservation projects, asset 
preservation projects, if you will, the ones you talk about to 
put in good repair, but it was about an 80-20 split on the 
State Highway System.
    Mr. Oberstar. Will you have drawn down your portfolio of 
those state-of-good-repair projects, a good portion of it, by 
the end of this Recovery program?
    Mr. Ridley. If I understand the question right, will those 
projects be completed?
    Mr. Oberstar. No. Will you have taken them off your 
inventory?
    Mr. Ridley. Absolutely. We have two programs. One is asset 
preservation and the other one is our 8-year construction 
program. Absolutely, sir, those were all projects that were in 
the queue.
    Mr. Oberstar. I know in the language of the trade you call 
it critical asset preservation. I call it critical asset 
investment in my transportation bill. We are creating for the 
future. We take these 108 categories of Federal programs, 
compress them down into four formula programs, one of which is 
critical asset investment, which is something I have heard for 
20 years from every State DOT in the country. We have this big 
backlog. We want to draw that down.
    So now you have got the money. You have had them designed 
for years at some stage or another. Now you are getting those 
accomplished. And what I want to know for the future is how 
much of that is going to be left, or do you still have an awful 
lot on the shelf needing to be done?
    Mr. Ridley. Mr. Chairman, Oklahoma has a great backlog of 
transportation needs.
    Mr. Oberstar. And you expect that is about the same for 
other States?
    Mr. Ridley. I would imagine so. When we built the 
interstate system--I was part of that in the sixties and the 
seventies--and we forgot it. And we built it and we kind of 
forgot them. Our interstate system in some areas, not only in 
Oklahoma but other places around the country, is an 
embarrassment. Certainly, the bridges that we built on the 
interstate system back during that time are of age and require 
major rehabilitation and, in some cases, replacement.
    So it is a daunting task that all of us face, not just in 
Oklahoma but throughout the country, to invest in the system. 
It is certainly our belief that the Federal Government needs to 
have a hand in both the financial responsibilities and 
direction of the national system. I think that lessons learned 
there are the same lessons that were learned in the early 
fifties, late forties, when it was decided that we needed a 
national system. We have that similar problem today on the 
highway system, but it is a matter of rebuilding it now.
    Mr. Oberstar. That is very helpful and a very, very 
thoughtful response. We didn't forget. We built the interstate 
over 50 years and then most of the traveling public thought it 
was built forever. Like the Romans and the Appian Way. There 
was a bridge in the heart of Rome that was built 2,300 years 
ago. It is still in operation. But it is only the width of a 
horse-drawn carriage. It is built of marble. It hasn't been 
destroyed by earthquake or acid rain or salt or snow or freeze-
thaw cycle, which we all have to go through.
    So there are some structures that do last near eternity, 
but for the rest of it we have got to rebuild it. Every year we 
have to replace about 15 percent of the interstate.
    Now, Mr. Calabrese, transit operating funds is a vexing 
issue. In the Recovery Act we had a provision allowing 10 
percent of transit capital funds to be used for operating 
assistance. There is an appeal for raising that threshold. To 
what level would you think?
    Mr. Calabrese. Well, Mr. Chairman, let me first say that 
the allowable 10 percent was a Godsend, for the reasons I 
mentioned previously. I know there are both tremendous amount 
of infrastructure needs out there, particularly good state of 
repair, and the operating needs. I think you want to keep the 
amount of flexibility in funding both reasonable and 
predictable.
    One idea I had, just an idea, and this is my personal idea, 
would be at least on a temporary basis--and with the next 
reauthorization--as we have allowed traditionally the use of 
capital money for the preventive maintenance of vehicles, if we 
could classify fuel as a preventive maintenance item, maybe for 
the electricity to run my trains or the clean diesel to run my 
buses, that would help address operational pressures. It is 
manageable. It is predictable, depending on the cost of diesel, 
which, maybe somewhere in the 5 to 10 percent of the operating 
budget's range on an annual basis, depending on the system, but 
that could be something at least as a temporary fix.
    That idea came from a frustration I have had in working 
with our local MPO, that is wonderful. If you are out there, I 
love the local MPO. But there is often excess CMAQ money 
available. CMAQ money is a form of money the MPOs have that 
probably doesn't have as much demand as the STP money, which is 
broader. I have often felt, Why can't I use CMAQ money to buy 
clean diesel fuel, because certainly if I am running a bus, I 
am reducing congestion and improving air quality.
    I don't know if that is a legislative obstacle or an 
administrative obstacle, but the use of fuel which is common, 
which helps the big systems and the small systems, might 
provide at least temporary relief until the recession is over.
    Mr. Oberstar. Thank you for that observation. We have in 
our authorization bill, there is a tension between the large 
metropolitan entities and the smaller ones, those 50,000 or 
less, those under 200,000. The smaller ones want that authority 
and have a broader authority. Current law will expand that. The 
larger ones have said, Don't even give us that authority 
because then our local government says, Oh, use your capital 
funds and not that revenue that comes out of our local budget 
to provide operating assistance. So that is something you have 
to help us with.
    Mr. Shuster.
    Mr. Shuster. Along the same lines, I am looking at some 
numbers and it appears that Cleveland is the only transit 
system that uses the maximum amount. Other systems have not 
used that. Just curious. I think along the same lines I have 
heard people saying that we want to use them for capital 
expenditures. My concern is that if we continue to give you 
more, people are going--transit systems are going to continue 
to use it for operations instead of getting it from the people 
that should be paying for operations, and that is the folks 
that are using the system.
    Mr. Oberstar. Exactly. I supplement Mr. Shuster's comment 
by saying the original principle of this partnership was that 
the Federal Government would help local agencies with the 
capital account. That is the biggest expense. So then you 
operate it and you run it out of your own funds. Am I right?
    Mr. Calabrese. I understand. The capital side certainly 
isn't the major side. I think and I know you do have a lot of 
respect for myself and my fellow colleagues, because every 
situation is different. Our situation in Cleveland, as I was 
just e-mailed this morning, our sales tax is our primary source 
of revenue. We are blessed with a source of local funds called 
the local sales tax.
    The issue is, because of the recession, we are down $18.9 
million from last year. So my choices were very simple: I 
either cut an awful lot of service, lay an awful lot of 
employees off, and prohibit a lot of my customers from getting 
to work, or use that flexibility, at least on a short-term 
basis, to at least try to maintain as much service as I can. 
And that is the decision we made.
    Every year is going to be different, every city is going to 
be different. I know when I ask my customers, they say, Try not 
to cut my service because I lose my house, I lose my job, I go 
into foreclosure.
    So we are doing everything we can as good managers, not 
only freezing payroll for my administration and then reducing 
our pay, to try to keep as much service on the road, and that 
was a tool available to us that we had to take advantage of 
this year.
    Ms. Siggerud. Chairman Oberstar, the data we have on RTA 
indicates that less than 1 percent of the transit capital 
assistance program funds in the Recovery Act are going for 
operating costs. I think that this provides an interesting 
opportunity to try to figure out why. It may be what you said, 
is the need to protect that capital side of the budget or it 
may be that because these funds are temporary, transit agencies 
haven't wanted to use the funds for operating and then need to 
replace those funds later when these funds expire. So it is an 
opportunity to look into the issue a little bit more as a case 
study here in this act.
    Mr. Oberstar. A very good observation. There was another 
principle involved because, since in the Recovery Act we are 
using general revenue funds, I felt it would be appropriate to 
have an increase in authority for transit agencies to use those 
dollars for operating account because on the one hand--the idea 
of this program is to createjobs, right--or save jobs. So on 
the one hand, the transit agency, one of our witnesses, I think 
it was from Atlanta, the Director of the Atlanta transit 
agency, said we will buy some new buses. But, at the same time, 
we may have to lay off workers. So on the one hand we are 
stimulating the economy and on the other hand we are 
destimulating it.
    When you get into our long-term transportation bill, 
though, those are Highway Trust Fund dollars, for the most 
part, that are going into transit agencies. And the principle 
this Committee has followed is, as in the highway program, 
those funds should be used for capital investment. Only in the 
mid-1970s did we begin to expand use of Highway Trust Fund 
dollars for repair and maintenance. Initially that was not part 
of the authority under the Interstate Highway Program and the 
Highway Trust Fund.
    Mr. Van Buren, I know in talking with the Sand and Gravel 
Institute and with the Associated General Contractors, both 
their Washington staff and their members across the country, 
that a great many sand and gravel operations and aggregate 
plants were shut down and some mothballed. When they heard 
about the stimulus, they said, Well, maybe there's hope for us 
to come back. And they began to ready their operations. Some of 
those that cut back were then able to move their workers from 
part-time to full-time.
    Can you, as you heard Ms. Richardson earlier ask GAO 
whether they can quantify jobs saved as distinguished from jobs 
created, workers called back to work, is there some way you can 
do that?
    Mr. Van Buren. Mr. Chairman, thank you for that question. I 
very much appreciate giving some input relative to this. From a 
construction worker's perspective, they work hour to hour, and 
day to day, week to week, month to month is not what they are 
looking at. They are really working hour to hour. That is what, 
as a contractor, as an aggregate supplier, as a bridge beam 
producer, that is what we can track.
    I am not sure if I can genuinely sit up here and say that 
if I go hire a carpenter that used to work for another 
construction company 3 weeks before, but he was laid off, if I 
created a job or not.
    But let me go to your snowmobile scenario that you threw 
out because, ironically, that is exactly the scenario I have 
been talking to most of our Pennsylvania legislators about.
    Our construction in Pennsylvania is very seasonal, and the 
goal of every seasonal construction worker in Pennsylvania is 
to work until Thanksgiving, and then they are very happy. They 
have work for 9 or 10 months and then they are laid off. That 
is a good year, a good season for a construction worker in 
Pennsylvania.
    In 2008, we shut down almost every one of our quarries and 
sand operations in Pennsylvania in the very beginning of 
October, the first week of October. So that is 8 weeks. Those 8 
weeks are not like 8 weeks in March, in April. Those 8 weeks 
are about 400 hours. There is probably 10 hours of overtime 
every single week. Those are 50-hour weeks. We are trying to 
beat the Thanksgiving deadline, we are trying to beat the 
weather. And I speak for Pennsylvania, but this is true of any 
northern State that has seasonal construction.
    Mr. Oberstar. You could be talking about Minnesota. That is 
our situation right there.
    Mr. Van Buren. And so this is the bread and butter. October 
and November is the money that they are going to buy your 
snowmobiles, which we have the good fortune of having in 
Pennsylvania, the four-wheelers that we have in Pennsylvania. 
We are in an area that have boats. This is the discretionary 
spending that our workers have. I talk to these guys every day 
because I employ 3,200 of these individuals, and this is their 
discretionary spending that they are going to get. If they are 
laid off in October, there is no discretionary spending. As I 
have said many times, it makes for some very unpleasant 
Christmas and holiday seasons, because they don't have that 
money. I am not trying to bring tears to anyone's eyes, but 
they are not buying the Christmas presents they normally would 
buy for their kids.
    Now you can say, So what? But in these small communities I 
might have in central Pennsylvania 20 workers from New 
Enterprise all living in Everett, Pennsylvania. Well, if they 
are not spending and buying two or threefour-wheelers, a big 
four-wheel drive truck, a boat, a Ski-Doo and a snowmobile, 
that is the trickle-down effect. So I am not pushing that money 
back into the economy. If they are on unemployment they are 
scraping every penny to make mortgage payments, buy food. They 
are going to start their winter layoff cycle a heck of a lot 
earlier. They are probably going to run out of benefits in 
March, which last year we had to actually extend benefits 
gratis on New Enterprise for about 20 workers. Because the 
stimulus was coming, we didn't want to lose them to any other 
industries, and so we pushed their benefits for them, gave them 
free benefits up until we were able to call them back in May 
and June. As a company we can't do that every year, but we knew 
the stimulus was coming, we knew there was going to be work, so 
we were able to look that far forward.
    So in 2008 we are laying off the beginning of October. This 
year our layoff was about, on average, 6 or 8 days before 
Thanksgiving. So with the stimulus dollars we were able to 
push, leave the quarries open, have the hot-mix plants hot, and 
have construction workers that are in the market segment of 
where a lot of the stimulus dollars went in Pennsylvania, which 
was the bridge rehabilitation and the asphalt program. We still 
do have heavy highway workers out building big bridges in 
Pittsburgh and doing some of the major reconstruction work, but 
that is because Pennsylvania has been able to maintain their 
base program and overlay the stimulus on top of it.
    So that is really the lifecycle of an employee. And, for 
me, at any point in time to say that is a new employee versus 
that is a "saved" job, they don't look at their jobs that way, 
because they are transient. Whether they are working for me or 
whether they are working for one of my competitors, if I don't 
have work, they are going to try to work for my competitor. Now 
if they go from me to my competitor, does he create a job?
    No. The stimulus produces construction worker hours. They 
are hourly workers. I may put on another accounts receivable 
person in my office. That is a trickle down. That is an add-on 
job. Design firms are going to be designing. When the jobs are 
obligated, we haven't created an immediate construction job, 
but we are going to once the job is awarded. There are a lot of 
upstream jobs from the point of obligation. So I cannot count. 
And when you were having that discussion with Congresswoman 
Richardson I was kind of cringing sitting over there because if 
I have to try to document whether it is a new employee or the 
salvation of an existing employee's job, I am going to have a 
very, very difficult time as a contractor and a materials 
supplier.
    But I can tell you that we have been tracking hours. The 
very last, as I collected data for this particular testimony, 
the last e-mail that I got from my payroll clerk that was 
giving me data said, Jamie, real interesting, real quick. Your 
blacktop division at New Enterprise, which is about 200 people, 
if I add the stimulus dollars that they received, because we 
are tracking that in accordance with the documentation 
required, if I add that payroll to the other payroll that they 
get for all the other work they have, it equals what they made 
in 2008 collectively.
    So I can tell you almost dollar-for-dollar. And when he 
sent me the e-mail I wish I had saved it because I would like 
to have been able to read the actual numbers. But our payroll 
in our blacktop division at New Enterprise was almost exactly 
the same in 2009 as it was in 2008. But I just can't really 
delineate new versus saved. But we can track hours for you, and 
we are more than happy to do it. If you want to create full-
time equivalents and we can turn it into--but hours is what the 
guys depend on when we are talking to the public at large, when 
you as Congress are talking to the public at large, that is 
what our workers understand. They understand hours.
    Mr. Oberstar. You have got it exactly right. I am sure, Ms. 
Andolino, you have the same view. That is why in our Committee 
report we report full-time equivalent hours worked. And we have 
them by the millions State by State. And so few people really 
understand the life of a construction worker. They don't just 
stay in one place. They move around where the job is.
    Mr. Shuster, do you have any other comments?
    Mr. Shuster. One quick question. And I have heard this for 
the last several months or year about the bids coming in way 
under what the engineers project. I was in business so I 
understand if a competitor is desperate, he is going to do it 
for nothing or maybe a little bit just to keep the lights on.
    So I am curious why engineers--again, when you have that 
situation, that is going to be off but when you can see that 
cement has gone down or oil has gone down, I don't understand 
why there is so often--and maybe it is just because of 
desperation. I guess that is the question I am looking for. Why 
are these numbers coming in so far off the mark, in your view?
    I would start out with Mr. Van Buren because he is the guy 
out there.
    Mr. Van Buren. I think it is really two components, and you 
hit both of them. In 2008, the asphalt went up so high, and it 
is a large component of what the ARRA funds have been spent on, 
that when--my understanding is when estimates are put together 
from engineers they are looking at past jobs and they are 
trying to factor in what they are projecting asphalt prices 
will be. And so we are doing the same thing when we are putting 
budgets together. Asphalt prices came down so much further than 
anybody thought that they were going to that that does create 
some piece of that miss.
    And the second piece is 17 bidders. I have no gripe being 
one of those bidders. It is a capitalist society and we are out 
there, and our job is to be as efficient with our workforce as 
we possibly can. And if there are 17 bidders, we will attempt 
to be low bidder whenever possible, and that definitely drives 
down prices as well. So I would suspect from my side that it is 
the combination of those two factors.
    Mr. Shuster. It is not the engineers living in the past and 
not being able to----
    Mr. Van Buren. They are doing absolutely as good as they 
possibly can do. They are looking at data when fuel--asphalt 
went up to $800 a ton and they are putting estimates together 
last winter when fuel then dropped down to $675 a ton and they 
are opening up their crystal ball going, What's it going to be 
when I pay for it next August? I didn't know the answer to 
that. They don't know the answer to that.
    Mr. Oberstar. We have a vote in progress on the House 
floor, to be followed by some other activity over there. There 
are a thousand questions I would still like to ask.
    Ms. Siggerud, I just want you to think about and get back 
to us with the question of this matter of States having to 
reprogram funds because bids have come in lower and what 
process is there that is so time consuming and how can we fix 
that.
    Ms. Siggerud. Mr. Oberstar, we are scheduled to report 
again in February. We will be looking specifically at this 
issue and working with States in terms of understanding what is 
happening, and we will report again in May and give a 
retrospective in terms of that deadline and what happened to 
meet it.
    Mr. Oberstar. Thanks to all of you for your wonderful 
contributions, thoughtful commentaries, both on the Recovery 
Act and on the 6-year authorization bill, the Surface 
Transportation Assistance Act.
    We are doing our best here. If we just left it up to Mr. 
Shuster, Mr. Mica, and me, maybe we would get it all done this 
afternoon.
    Thank you very much. The Committee is adjourned.
    [Whereupon, at 3:27 p.m., the committee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T4019.077
    
    [GRAPHIC] [TIFF OMITTED] T4019.078
    
    [GRAPHIC] [TIFF OMITTED] T4019.079
    
    [GRAPHIC] [TIFF OMITTED] T4019.080
    
    [GRAPHIC] [TIFF OMITTED] T4019.081
    
    [GRAPHIC] [TIFF OMITTED] T4019.082
    
    [GRAPHIC] [TIFF OMITTED] T4019.083
    
    [GRAPHIC] [TIFF OMITTED] T4019.084
    
    [GRAPHIC] [TIFF OMITTED] T4019.085
    
    [GRAPHIC] [TIFF OMITTED] T4019.086
    
    [GRAPHIC] [TIFF OMITTED] T4019.087
    
    [GRAPHIC] [TIFF OMITTED] T4019.088
    
    [GRAPHIC] [TIFF OMITTED] T4019.089
    
    [GRAPHIC] [TIFF OMITTED] T4019.090
    
    [GRAPHIC] [TIFF OMITTED] T4019.091
    
    [GRAPHIC] [TIFF OMITTED] T4019.092
    
    [GRAPHIC] [TIFF OMITTED] T4019.093
    
    [GRAPHIC] [TIFF OMITTED] T4019.094
    
    [GRAPHIC] [TIFF OMITTED] T4019.095
    
    [GRAPHIC] [TIFF OMITTED] T4019.096
    
    [GRAPHIC] [TIFF OMITTED] T4019.097
    
    [GRAPHIC] [TIFF OMITTED] T4019.098
    
    [GRAPHIC] [TIFF OMITTED] T4019.099
    
    [GRAPHIC] [TIFF OMITTED] T4019.100
    
    [GRAPHIC] [TIFF OMITTED] T4019.101
    
    [GRAPHIC] [TIFF OMITTED] T4019.102
    
    [GRAPHIC] [TIFF OMITTED] T4019.103
    
    [GRAPHIC] [TIFF OMITTED] T4019.104
    
    [GRAPHIC] [TIFF OMITTED] T4019.105
    
    [GRAPHIC] [TIFF OMITTED] T4019.106
    
    [GRAPHIC] [TIFF OMITTED] T4019.107
    
    [GRAPHIC] [TIFF OMITTED] T4019.108
    
    [GRAPHIC] [TIFF OMITTED] T4019.109
    
    [GRAPHIC] [TIFF OMITTED] T4019.110
    
    [GRAPHIC] [TIFF OMITTED] T4019.111
    
    [GRAPHIC] [TIFF OMITTED] T4019.112
    
    [GRAPHIC] [TIFF OMITTED] T4019.113
    
    [GRAPHIC] [TIFF OMITTED] T4019.114
    
    [GRAPHIC] [TIFF OMITTED] T4019.169
    
    [GRAPHIC] [TIFF OMITTED] T4019.115
    
    [GRAPHIC] [TIFF OMITTED] T4019.116
    
    [GRAPHIC] [TIFF OMITTED] T4019.117
    
    [GRAPHIC] [TIFF OMITTED] T4019.118
    
    [GRAPHIC] [TIFF OMITTED] T4019.119
    
    [GRAPHIC] [TIFF OMITTED] T4019.120
    
    [GRAPHIC] [TIFF OMITTED] T4019.121
    
    [GRAPHIC] [TIFF OMITTED] T4019.122
    
    [GRAPHIC] [TIFF OMITTED] T4019.123
    
    [GRAPHIC] [TIFF OMITTED] T4019.124
    
    [GRAPHIC] [TIFF OMITTED] T4019.125
    
    [GRAPHIC] [TIFF OMITTED] T4019.126
    
    [GRAPHIC] [TIFF OMITTED] T4019.127
    
    [GRAPHIC] [TIFF OMITTED] T4019.128
    
    [GRAPHIC] [TIFF OMITTED] T4019.129
    
    [GRAPHIC] [TIFF OMITTED] T4019.130
    
    [GRAPHIC] [TIFF OMITTED] T4019.131
    
    [GRAPHIC] [TIFF OMITTED] T4019.132
    
    [GRAPHIC] [TIFF OMITTED] T4019.133
    
    [GRAPHIC] [TIFF OMITTED] T4019.134
    
    [GRAPHIC] [TIFF OMITTED] T4019.135
    
    [GRAPHIC] [TIFF OMITTED] T4019.136
    
    [GRAPHIC] [TIFF OMITTED] T4019.137
    
    [GRAPHIC] [TIFF OMITTED] T4019.138
    
    [GRAPHIC] [TIFF OMITTED] T4019.139
    
    [GRAPHIC] [TIFF OMITTED] T4019.140
    
    [GRAPHIC] [TIFF OMITTED] T4019.141
    
    [GRAPHIC] [TIFF OMITTED] T4019.142
    
    [GRAPHIC] [TIFF OMITTED] T4019.143
    
    [GRAPHIC] [TIFF OMITTED] T4019.144
    
    [GRAPHIC] [TIFF OMITTED] T4019.145
    
    [GRAPHIC] [TIFF OMITTED] T4019.146
    
    [GRAPHIC] [TIFF OMITTED] T4019.147
    
    [GRAPHIC] [TIFF OMITTED] T4019.148
    
    [GRAPHIC] [TIFF OMITTED] T4019.149
    
    [GRAPHIC] [TIFF OMITTED] T4019.150
    
    [GRAPHIC] [TIFF OMITTED] T4019.151
    
    [GRAPHIC] [TIFF OMITTED] T4019.152
    
    [GRAPHIC] [TIFF OMITTED] T4019.153
    
    [GRAPHIC] [TIFF OMITTED] T4019.154
    
    [GRAPHIC] [TIFF OMITTED] T4019.155
    
    [GRAPHIC] [TIFF OMITTED] T4019.156
    
    [GRAPHIC] [TIFF OMITTED] T4019.157
    
    [GRAPHIC] [TIFF OMITTED] T4019.158
    
    [GRAPHIC] [TIFF OMITTED] T4019.159
    
    [GRAPHIC] [TIFF OMITTED] T4019.160
    
    [GRAPHIC] [TIFF OMITTED] T4019.161
    
    [GRAPHIC] [TIFF OMITTED] T4019.162
    
    [GRAPHIC] [TIFF OMITTED] T4019.163
    
    [GRAPHIC] [TIFF OMITTED] T4019.164
    
    [GRAPHIC] [TIFF OMITTED] T4019.165
    
    [GRAPHIC] [TIFF OMITTED] T4019.166
    
    [GRAPHIC] [TIFF OMITTED] T4019.167
    
    [GRAPHIC] [TIFF OMITTED] T4019.168
    
                                    

</pre></body></html>
